<html>
<title> - WILDFIRE MANAGEMENT</title>
<body><pre>[Senate Hearing 112-128]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-128

                          WILDFIRE MANAGEMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

     CONSIDER THE WILDFIRE MANAGEMENT PROGRAMS OF THE FEDERAL LAND 
                          MANAGEMENT AGENCIES

                               __________


                             JUNE 14, 2011





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
70-919 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     4
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Thorsen, Kim, Deputy Assistant Secretary for Law Enforcement, 
  Security, and Emergency Management, Department of the Interior.    13
Tidwell, Tom, Chief, Forest Service, Department of Agriculture...     8

                                APPENDIX

Responses to additional questions................................    39

 
                          WILDFIRE MANAGEMENT

                              ----------                              


                         Tuesday, June 14, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman of the committee, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why do we not get started? The purpose of 
our hearing this morning is to consider the Federal land 
management agencies' wildfire management programs. I am going 
to give a short statement. Then Senator Murkowski will, and 
then we will hear from our colleague, Senator Kyl, before we 
hear from our two witnesses.
    It has been a dynamic year of severe weather--intense 
tornadoes, flooding throughout much of the United States, 
extreme drought, and wildfire activity in the southwest and 
much of the south. The overall trend of increasing drought and 
wildfire in the west and southwest have been attributed by 
numerous scientific reports to climate change, including the 
recent report of our National Academy of Sciences entitled, 
``America's Climate Choices.''
    Since climate change will continue into the future, we can 
expect the incidence of severe weather and further drying out 
of the already arid regions of the west to continue as well. We 
had a hearing in Santa Fe about 6 weeks ago with some experts, 
and the point was made repeatedly that droughts will be more 
frequent in the southwest, and they will last longer than they 
have in the past.
    In the news this last week, we have seen the kinds of 
challenges that we face. Federal land management agencies are 
currently battling severe wildfires in Arizona, which are now 
coming into New Mexico, Colorado, Alaska, and elsewhere. 
Obviously we express our concern for the families who have lost 
their homes, and for those whose property remains at risk. We 
also want to express our gratitude to the thousands of fire 
fighters and wildfire managers who are working tirelessly to 
protect lives, property, and natural resources.
    The challenges posed by the larger and more intense drought 
and wildfires have called for a variety of policy changes to 
adapt to these new realities. As a result of some of the 
policies that we have urged here in this committee, for the 
first time in years, I believe the agencies are making progress 
on a range of critical wildfire management issues. Let me 
mention five of those.
    The FLAME Act established a framework for rational 
budgeting of emergency wildfire suppression expenses that can 
help to avoid the enormous disruptions and inefficiencies that 
frequently have occurred when regular appropriations are 
insufficient to cover unanticipated emergency costs.
    Second, in addition through the FLAME Act, the agencies 
finally have developed a strong framework for a cohesive 
wildfire management strategy, and they deserve credit for that.
    The agencies are successfully employing collaborative 
landscape scale projects that reduce fuels and wildfire costs 
and that improve forest and watershed health.
    With the support of the economic stimulus package of a few 
years ago, the Forest Service reduced wildfire risk by 
conducting fuel and restoration treatments across a record 
number of acres during the last 2 years.
    Finally, the agencies are fighting fires in a more cost 
effective manner since adopting a more flexible management 
response protocol and utilizing state-of-the-art predictive 
technologies.
    Certainly there are significant challenges that remain. 
Forest health and wildfire management are related areas where I 
think we need to be careful in our important effort to reduce 
spending. I fear that we may be headed toward an approach that 
turns out to be penny wise and pound foolish. For example, the 
agencies do not have adequate resources to reduce hazardous 
fuels and restore forest and rangeland health, particularly 
against a background of growing climate-related vulnerability. 
Recent cuts to the Forest Service work force are accelerating 
the problem of a rapidly diminishing force of available 
critical firefighters. The result is likely to be significantly 
higher costs to taxpayers and the economy as a result of severe 
wildfires.
    Another challenge that looms large given our fiscal 
situation is the fact that the Nation's remaining fleet of 
aging air tankers needs to be replaced or restored in the near 
future. The cost for doing that will be quite substantial, and 
it cannot be covered from within the agencies' existing 
budgets.
    I hope our witnesses can help us understand how we can 
continue to make progress in wildfire management. Let me defer 
to Senator Murkowski for her comments.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the hearing this morning. Welcome to our colleague, Senator 
Kyl. I think oftentimes we are brought together by things that 
are happening in our States. I know that you have been very 
anxious about the fires in Arizona that are now coming into New 
Mexico. In Alaska we have got some significant fires burning as 
well. I am watching the East Volkmar fire very carefully 
because we have got a family cabin that has been sitting out 
there. You worry about these things. You worry about what is 
happening within any given fire season, but to those who have 
lost property, those who have been threatened, we are very 
concerned. I know, Senator Kyl, you are quite anxious about 
what is going on in your State.
    But we have to wonder how many times do we have to have a 
fire season like we are having now before we are really going 
to collectively work to protect our forests? It was about a 
decade ago that the Rodeo-Chediski fire consumed 468,000 acres 
on the Apache-Sitgreaves National Forest. A couple of days 
later, we had the Biscuit fire that burned nearly 500,000 acres 
in the Siskiyou National Forest in southern Oregon and northern 
California. In 2002 three heavy fire fighting aircraft suffered 
structural failures, which led to the grounding of more than 
half of the available aircraft that had been used to drop 
slurry on these fires. The grounding of the aircraft reduced 
the number of companies that supplied these aircraft, and 
subsequently the number of aircraft we had available for the 
slurry dropping duty was down by over 60 percent in 2004.
    So, we fast forward to today. Thus far this fire season, we 
have burned over 4.1 million acres. Today, the Wallow fire in 
Arizona is burning just 40 miles to the east of where the 
Rodeo-Chediski fire burned back in 2002. As of yesterday, 
430,000 acres had been burned.
    Back in 2003, we authorized and funded a prodigious amount 
of pre-suppression and hazardous fuels work through the Healthy 
Forest and Forest Restoration programs, but we are just not 
seeing much as a consequence of that. We have got little to 
show for it.
    Our forests are no more able to withstand the ravages of 
fire and/or insects than they were 10 years ago. Even after 
every forest service supervisor signed a pledge to fully 
implement up to 20 million acres in the Healthy Forest 
Restoration Act, today less than one-third of the authorized 
projects have been accomplished. I have to believe that this 
failure rests with the land management agencies.
    In 2003, we asked the Forest Service to answer the 
question, ``what do you need?'' What do you need to replace the 
heavy fire fighting aircraft that were grounded in 2002? It 
took 10 years to develop the answer, and when it came it was 
with a $2 billion price tag during a time when Congress is 
cutting the Federal budget by 15 to 20 percent. It included no 
recommendations to how we were going to pay for it.
    Even more frustrating is that the agency seems to be 
fixated on one aircraft type and refuses to consider any other 
alternatives. Last month, Chief Tidwell told me that the Forest 
Service would work to acquire a variety of aircraft types, but 
his staff continues to tell people that the agency will only 
accept an aircraft that can carry 3,000 gallons of slurry. I 
just do not understand why the Forest Service continues to tell 
the aircraft manufacturers and others here in Congress that 
whatever new aircraft it acquires is going to need to carry 
3,000 gallons of slurry.
    So, my message to the land management agencies is this: 
develop a procurement plan to replace the aging aircraft that 
looks at a variety of types of size aircraft; develop the plan 
so you have got the flexibility to drop slurry, foam gel, or 
water; develop it to take advantage of the lakes and rivers 
that hold millions upon millions of gallons of water that could 
and should be dropped by water scooping aircraft; do not ignore 
the opportunity to keep the existing fleet operational longer; 
and finally, aggressively begin to use all of the authorities 
that this Congress has given you.
    I want to see more healthy forest restoration projects. I 
want to see more large-scale restoration projects and within 
this decade, not 10 years from now, 20 years from now, 30 years 
from now, because as I look back on all the lost opportunities 
of the last 10 years, none pains me more than the failure of 
our land management agencies to use those authorities that 
Congress has provided.
    Mr. Chairman, I do hope that today we will get some 
updates, but also perhaps a better understanding as to how the 
land management agencies can use those authorities that we have 
given them more effectively.
    Thank you.
    The Chairman. Before we hear from our two scheduled 
witnesses, Senator Kyl wished to address the committee and give 
us an update on the circumstances that his State has faced, 
which of course has been catastrophic with this current fire 
that continues. So, we welcome you, Senator Kyl. Thank you for 
coming, and please tell us whatever you think the committee 
needs to know.

          STATEMENT OF SENATOR JON KYL, U.S. SENATOR 
                          FROM ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman, and I very 
much appreciate both your opening statement and Ranking Member 
Murkowski's statement. Right on the target. I do want to say 
that when this hearing is traditionally held about this time of 
the year about going into the fire season, in your State and 
mine, of course, fire season starts in May. In our case, it is 
already well under way.
    I would like to ask each of the members of the committee 
who are here and the staff to please read the statement. It 
will take about two and a half minutes.
    I would rather just talk about what I know from firsthand 
observations. I want to begin by thanking all of the personnel 
who have been fighting the fires in Arizona. We now have almost 
800,000 acres burning or burned in just four fires so far 
during this fire season in Arizona. You mentioned the Wallow 
fire, which is by far the largest; it is in the Arizona White 
Mountains. The Apache-Sitgreaves Forest just east, as Senator 
Murkowski said, of the Rodeo-Chediski fire of 9 years ago. 
Those fires destroy at least--well, in the case of just those 
two alone, you are going to be at about a million acres of 
Ponderosa pine, dug for Blue Spruce, and a lot of meadowlands, 
but an incredibly pretty part of our State of Arizona. There is 
a booklet that has just a few pictures that you can see.
    From the map here of the Wallow fire, you can see with each 
of the colors how rapidly the fire moved, starting in the 
extreme southwest part and then moving on up through the 
others. If I could just go to the map and point out a couple of 
things, I think it might help.
    About 10,000 people had to be evacuated from the town of 
Eager and Springerville here. The town Nutrioso right here was 
almost surrounded by the fire. The town of Alpine here 
literally is surrounded by the fire. The little community of 
Greer here--Greer got hit the worst, and I will describe that 
in just a moment. The fire started here and rapidly moved in 
this direction.
    The problem with this fire was the wind. Yes, it is very, 
very dry. It is warm. But the winds were 40 miles an hour 
gusting up 60, and you cannot fight fires in those conditions. 
The big tankers were not usable because they simply couldn't 
drop the retardant or water on the targets with any degree of 
precision. So, helicopters were the only option in many 
situations.
    We have a cabin in the community of Greer, and last 
Friday--a week ago Friday we were having dinner with four--
three of our neighbors, and that cabin where we were sitting 
out on the deck and looking at the beautiful landscape, is now 
gone, totally destroyed. It is just a half a mile from where 
our place is. About 22 homes along a half mile stretch of road 
were lost in that community of Greer. The fire came down over a 
ridge, and the firefighters had to evacuate very quickly 
because of the speed with which the fire progressed. They could 
not stop it.
    We have evidence already that the areas that were thinned 
performed much better than the areas that were not. I believe, 
and will leave it to Chief Tidwell and the others who will give 
us the after action report, but I believe they will conclude 
that the communities of Alpine, Nutrioso, Springerville, and 
Eager were saved because of thinning in the vicinity of those 
communities. Of course, the fire burned more slowly in some 
other areas.
    The problem is, as Senator Murkowski pointed out, we are 
just treating a drop in the bucket when it comes to the amount 
of acreage that we have to treat. The area of the Apache-
Sitgreaves had the biggest contract for Forest Service 
stewardship to treat 150,000 acres over 10 years. Over the last 
7 years, we have treated almost 49,000 acres. That is at a cost 
of about $2.5 million a year, which includes all of the 
planning and preparation costs. Clearly, we have a long way to 
go. The fires are rapidly outstripping our ability to do this 
on a larger scale.
    As a couple of you have alluded to, you do not want to be 
penny wise and pound foolish, as the chairman said. The costs 
of fighting the fires and reconstructing afterward far exceed 
the prevention costs. It is like any other medical situation. 
Prevention will save you a lot of money in the long run, but it 
does require an upfront commitment.
    But it is not just preventing fires. The management of 
forests make them more healthy. You have better flora and 
fauna. The ecology is superior, less prone to disease. Water 
runoff is better. In all respects, if you can do the treatment 
early, you are going to save money in the long run.
    This one fire--Wallow fire--alone has already cost $65 
million. Think about how much land we could have treated if we 
had put that money up front.
    There are photographs in a book that is being passed around 
to show you just some of what the area looks like. One 
interesting photograph shows near Alpine, one of the villages 
saved here, untreated area versus treated area. You all know 
exactly what happens. In the treated area, the fire lays down 
and they are better able to control it.
    What we have tried to create in Arizona is a new program 
for larger area treatment. The area that we would be talking 
about is on a scale of 500,000 to a million or more acres. The 
proposal on the table is called the Four Forest Restoration 
Initiative, or Four FRI. It is a collaboration between all of 
the stakeholders, including the environmental community and all 
others. It is--the whole concept is we have got to treat large 
areas or there is not going to be anything left to treat by the 
time we get around to it.
    So, what I am hoping is that the committee can focus on why 
we are not doing what we need to do. I have some 
recommendations in my statement. One of them has to do with the 
costs for the Forest Service associated with the potential 
cancellation of contracts and the need for front end bonding, 
which just adds to the cost. That is one thing I think we need 
to deal with. We also need to obviously commit more resources 
to do the thinning in advance of the fires rather than trying 
to pull the money together to fight the fires.
    There is so much more I would like to say about this, but 
if I could just urge my colleagues to read the statement. We 
are now beginning to look at the costs of reconstruction here, 
the bare expenses, the other indirect costs of the cleanup and 
treatment to try to begin to restore.
    It is impossible the ecosystem losses. I mean, the Western 
Forest Leadership Coalition, which is a partnership between 
State and Federal Government entities, estimate the costs are 
two to 30 times the reported suppression costs. The Rodeo-
Chediski fire that the Senator from Alaska mentioned, the true 
total cost was estimated to be closer to $308 million; in other 
words, about 15 times the cost to suppress it. So, you look at 
what happens after the fire, and the costs in every respect are 
just devastating.
    So, I urge the committee to work up recommendations for 
what we can do to prevent this kind of destruction. I will 
certainly pledge my best efforts, not only to support that, but 
to come up with the resources necessary to accomplish it so 
that we do not continue to suffer the kind of devastation that 
is afflicting my State right now.
    I thank all of you for your attention.
    [The prepared statement of Senator Kyl follows:]
     Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona
    Thank you for holding this hearing on wildfire management and for 
agreeing to give me a few minutes to come talk to you today.
    I want to start by first thanking all of the firefighters and other 
personnel for their service in combatting the wildfires in my state and 
across the nation. It is not easy. I want them to know I appreciate 
their tireless efforts.
    Arizona is ground zero so far this fire season for mega-fires--
those fires that burn tens of thousands of acres--sometimes in just 
hours.
    The Wallow Fire on the Apache-Sitgreaves Forest in the White 
Mountains of Eastern Arizona has grown to nearly a half a million acres 
in just 2 weeks charring in its wake some of the most beautiful 
Ponderosa Pine country in the state. (PHOTOS and MAP) Almost 10,000 
people were forced to evacuate. Based on a structural assessment 
conducted over the weekend, Greer, has been the hardest hit. When the 
fire rolled in to the community on Wednesday last week it destroyed 22 
homes and 24 other buildings out of a total of 50 structures destroyed 
in the fire to date. The fire is just 18 percent contained as of this 
morning and has crossed the border into the neighboring state of New 
Mexico.
    This fire, however, is not the only one burning in Arizona, the 
Horseshoe Fire, the Murphy Complex and the newest, the Monument Fire, 
have already blackened another 200,000 acres. These are some of the 
most beautiful grasslands and rugged mountain ranges in southern 
Arizona (Chiricahua mountains). Given the conditions and the continued 
fire risk, on June 9, the Coronado National Forest issued an order 
temporarily closing large parts of the forest to visitors.
    In Arizona alone, the fire suppression bill is over $65 million and 
growing.
    It all seems horribly reminiscent of the disastrous fire season of 
2002, when 6.9 million acres burned across the West. That year the 
Rodeo-Chediski Fire, the largest fire in Arizona's history, hit the 
same forest as the Wallow, in an area just 40 miles northwest, burning 
over 468,000 acres, including a large portion of the Fort Apache 
Reservation. Over 490 structures were destroyed, and more than 30,000 
residents of nearby communities were evacuated. The Forest Service 
spent over $47 million to extinguish the blaze. Unfortunately, the 
Wallow Fire will likely over take the Rodeo-Chediski fire in size and 
cost before it is extinguished.
    The millions of dollars spent year after year on fire suppression 
do not reflect the true costs of unnaturally severe wildfire. Fire 
suppression costs are only the immediate costs that are the most easily 
quantifiable and reported to the public. The affected communities and 
the ecosystem itself will experience longer-term impacts; the costs of 
which dwarf the costs of the wildfire but are often difficult to 
capture. Specifically, these costs include: (1) direct rehabilitation 
costs/ BEAR expenses (post-fire flooding and soil erosion, property 
loss recovery), (2) indirect costs (healthcare and mental health 
treatment costs, loss of life, reduced property values, and lost 
revenues to residents and businesses) and (3) ecosystem costs (reduced 
watershed function, air and water quality impairment, loss of wildlife 
habitat, water infrastructure damage and accelerated carbon release for 
long-periods post-fire). The Western Forestry Leadership Coalition, a 
state and federal government partnership, estimates these costs are 2 
to 30 times the reported suppression costs.\1\ For example, the Rodeo-
Chediski Fire's true total cost was closer to $308 million, 15 times 
the cost to suppress it.\2\
---------------------------------------------------------------------------
    \1\ Western Forestry Leadership Coalition, April 2009, updated 
April 2010. The True Cost of Wildfire in the Western U.S. at p. 14.
    \2\ Id. at p. 5.
---------------------------------------------------------------------------
    Although the need to suppress fires is not going to go away, it is 
widely recognized that active forest restoration management can reduce 
the risk of catastrophic fire, increase firefighting safety and 
effectiveness, improve recovery time and contribute to ecosystem 
function, before, during and after a fire. In Arizona we have seen 
first hand that treatments work. Early reports from the Wallow Fire 
suggest that, in areas that have been thinned under the White Mountain 
Stewardship Project, flames dropped to the ground and burned more 
slowly. For example, in Alpine, one of the communities hit, 
firefighters told reporters that they were better able to protect it 
because of the thinning that had been done around the community.\3\ 
Reports indicate the same positive fire behavior was displayed in 
treated areas near Eager and Nutrioso.\4\ Even in Greer, there is a big 
difference between the areas treated versus areas not treated.\5\
---------------------------------------------------------------------------
    \3\ McKinnon, Shaun. Wallow Fire may be preview of things to come, 
experts say. The Arizona Republic (June 12, 2011).
    \4\ Statements from Chris Knopp, Apache-Sitgreaves Forest 
Supervisor.
    \5\ Davis, Tony. Thinning likely reduced fire's destructive power. 
June 12, 2011.
---------------------------------------------------------------------------
    The White Mountain Project is the first large scale Forest Service 
stewardship contract in the nation. Awarded in 2004, to Future Forest 
LLC, a local business, the contract had as its goal treating 150,000 
acres of the Apache-Sitgreaves Forest over 10 years. Over the last 
seven years nearly 49,000 acres\6\ have been treated at a cost of 
approximately $2.5 million a year including all planning and prep 
costs. It has also successfully developed new markets for woody 
biomass, creating a demand for 15,000 acres per year during one of the 
most severe economic downturns the wood products industry has seen. 
Although costs are still relatively high, when compared to the costs of 
suppression and the indirect costs of catastrophic wildfire, it is a 
small price to pay. Besides, management of national forest system lands 
is a federal responsibility. Prevention is always cheaper than fighting 
the disease.
---------------------------------------------------------------------------
    \6\ Future Forests LLC. See www.futureforest.info.
---------------------------------------------------------------------------
    I would be remiss if I did not point out that the stewardship 
contracting tool this project utilizes will expire in 2013 if Congress 
does not act to reauthorize it. Obligating cancellation ceiling 
reserves for these contracts is also problematic and will likely 
require a legislative fix.\7\
---------------------------------------------------------------------------
    \7\ Letter to Congresswoman Ann Kirkpatrick from Thomas Vilsack, 
USDA Secretary dated August 31, 2010.
---------------------------------------------------------------------------
    The current federal system continues to give funding priority to 
suppression. If we are going to save what is left of our forests we 
must change our priorities and aggressively treat our forests at the 
pace and scale these fires are occurring.
    That means thinking big and acting now. Treatments focused solely 
on hazardous fuel reduction around communities may be appropriate in 
some cases, but they do not achieve the enduring fire protection and 
ecosystem restoration that are urgently required. A greater investment 
in landscape-scale forest restoration treatments will reverse the 
degradation of our forests while simultaneously reducing the risk of 
catastrophic crown fires.
    I am talking about thinking on a scale of 500,000 to a million or 
more acres at a time and doing programmatic environmental reviews at 
that scale too. That's never been done before but Arizona's ready. We 
have a proposal on the table. It's called the Four Forest Restoration 
Initiative (4FRI). The 4FRI is an outgrowth of nearly a decade of 
collaborative efforts and analyses focused on accelerating forest 
restoration in northern Arizona. The 4FRI is rooted in the need to 
accelerate forest restoration and to shift restoration and management 
efforts from a short term, project-by-project basis to an integrated, 
landscape-scale program. The goal is to strategically treat about a 
million acres across four national forests in Northern Arizona over the 
next 20 years. Bear in mind, that's how many acres burned in just the 
Wallow fire this year and the Rodeo-Chediski fire 9 years ago.
    In order for this effort to be successful it is going to require a 
significant federal investment including funding and other resources. 
In addition, industry will need to come to the table to help offset 
treatment costs. But just as important, it is going to require 
cooperation from the environmental activist community. Taylor McKinnon 
from the Center for Biological Diversity stated in a recent opinion 
piece about such cooperation that, ``Our Ponderosa-Pine Forests deserve 
as much.''\8\ I agree.
---------------------------------------------------------------------------
    \8\ McKinnon, Taylor. Cooperation Crucial to Forest Restoration, 
Arizona Republic (June 13, 2011).
---------------------------------------------------------------------------
    There are things Congress can do to help:

  <bullet> Reauthorize and make permanent the stewardship contracting 
        tool. Long-term wood supply guarantees are necessary in order 
        to attract private investment to our forests to accomplish the 
        restoration work that needs to be done.
  <bullet> The Energy Independence and Security Act of 2007, includes a 
        36 billion-gallon renewable fuels standard (RFS), a portion of 
        which will be made from biomass. A last-minute change in the 
        legislation's definition of renewable biomass, however, 
        prevents almost all federal land biomass such as trees, wood, 
        brush, thinnings, chips and slash from counting toward the 
        mandate if it is used to manufacture biofuels. That makes no 
        sense and we need to change it.
  <bullet> Support full funding for the implementation of the Southwest 
        Forest Health and Wildfire Prevention Act and the Forest 
        Landscape Restoration Act so that we can get effective science-
        based restoration on the ground at landscape scales now when it 
        can still make a difference.

    Thank you for your time and attention. I look forward to working 
with my colleagues on these important issues.

    The Chairman. Thank you, Senator Kyl, and we obviously 
appreciate the great damage that is being done to your State 
and sympathize with you and all the people of Arizona in that 
connection.
    Why do we not go ahead and dismiss you and invite our two 
witnesses? Mr. Tom Tidwell, who is chief of the Forest Service, 
and Ms. Kim Thorsen, who is deputy Assistant Secretary for Law 
Enforcement, Security, Emergency Management and Wildland Fire 
in the Department of Interior.
    We appreciate both of you being here. Chief Tidwell, did 
you want to start, and then we will hear from Ms. Thorsen after 
you are finished. Take whatever time you need to make your main 
points. Obviously both of your statements will be included in 
our record.

STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Tidwell. Thank you. Mr. Chairman, Ranking Member 
Murkowski, and members of the committee, I want to thank you 
for the opportunity to appear before you today.
    The Forest Service, the Federal agencies, our State, the 
tribal governments, and our local fire departments, together 
have the premier wildland firefighting organization in the 
world. I believe it is an example of government at its best. 
Together, we continue to be prepared for the 2011 wildland fire 
season. We have the same level of preparedness that was 
available last year, including more than 16,000 Federal 
firefighters with about 70 percent of those from the Forest 
Service.
    So, far the 2011 fire season has been relatively severe. As 
of today, more than four million acres have burned across the 
country, which is more than twice the year to date 10-year 
average. Parts of the south and southwest are in a prolonged 
drought, and more large fires have burned in the south--most of 
the large fires have burned in the southeast, Texas, Oklahoma, 
Arizona, and New Mexico. We also have some large fires in 
Alaska that the Senator referred to. However, in the Sierras, 
the Cascades, and the central and northern Rockies, we're 
having record snow packs. So, it remains to be seen just how 
severe this fire season is going to be overall.
    But based on the level of fire activity and projections for 
the rest of the year, suppression funding for this year should 
be sufficient. Appropriations are similar to last year, and we 
funding from prior years in case of a worse than expected fire 
season. Together with the FLAME Fund, that should be enough to 
prevent any transfer of funds from non-fire accounts. Once 
again, I want to thank you for securing the FLAME account for 
us.
    The FLAME Act also requires that Federal fire managers 
develop a more cohesive wildland fire management strategy. We 
wanted to do this in a more collaborative effort than we have 
done in the past. So, we brought together not only the Federal 
partners, but our States, the tribes, local and municipal 
governments to develop a shared national framework.
    Now, this cohesive strategy has three main goals. The first 
is to restore and maintain healthy, resilient landscapes. By 
vegetation to restore the natural processes and functions, we 
can minimize the adverse impacts of wildland fire. The second 
goal is to create fire adapted human communities by reducing 
fuels in the wildland urban interface, and by helping 
communities adapt their planning and building practices that 
make homes and communities safer from wildfire.
    We are making progress. Last year, our fuels and forest 
restoration treatments reduced hazardous fuels on almost three 
million acres. That is more than twice the area we treated just 
10 years ago. With those treatments, we are having success, as 
these photos show today, the photos that Senator Kyl was 
referring to. The photo on the left shows severe fire effects 
in an untreated area on the wall of fire just outside of that 
community of Alpine. The photo on the right shows an area that 
was treated under the 10-year White Mountain Stewardship 
contract.
    When the fire hit this treated area, it was a running crown 
fire up in the top of the trees. It hit the area that was 
treated. It lost that continuous fuel in the crowns. It dropped 
down onto the ground, which allowed our firefighters then to be 
able to get in there and to control it before it burned into 
the adjacent homes.
    Now, the third goal of our fire management strategy is to 
make safe, effective, risk-based wildfire management decisions. 
Now, we are going to continue to suppress 98 percent of the 
fires that we take initial attack on. But to assist with that 2 
percent of the fires that become large, we have developed our 
wildland fire decision support system to help our fire managers 
make strategic and tactical decisions on these large fires. 
Public safety, firefighter safety will always be our core 
agency value.
    In closing, I want to touch on the issue with large air 
tankers. Large air tankers are an effective part of wildland 
fire suppression. But our current fleet averages more than 50 
years old. In the next 10 years, more than half of our large 
air tankers will need to be replaced, and are studying the 
options and will be making a recommendation to you by the end 
of the summer.
    I want to thank you, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Tidwell follows:]
 Prepared Statement of Tom Tidwell, Chief, Forest Service, Department 
                             of Agriculture
                              introduction
    Chairman Bingaman, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to appear before you today to 
provide the status of the U.S. Forest Service's wildfire response 
capabilities.
    The Federal Government Agencies responsible for wildland fire 
fighting are perhaps the premier wildland firefighting organization in 
the world. Together, we (along with our State, local, and tribal 
government partners) work to maintain our operational excellence and to 
continually improve the safety and effectiveness of the fire management 
program. We take seriously our role in protecting people, property and 
valuable natural resources from wildfire. We are prepared for the 2011 
wildland fire season and are staffed to provide appropriate, risk 
informed, and effective fire management. We will continue our 
commitment to aggressive initial attack of wildfires, where 
appropriate, with full attention to firefighter and public safety. 
Further, Federal engagement with State and local fire agencies is 
central to our collective success. Wildfires know no boundaries and we 
must work within an all-lands context to manage for and respond to 
wildfires. Our commitment to risk-informed, performance-based 
strategies will reduce exposure of firefighters and the public at large 
to unnecessary risk during fire incidents. Additionally, we will 
continue to provide assistance to communities that have been or may be 
threatened by wildfire to enable these communities to become more fire 
resilient and to reduce risks of fire.
          national cohesive wildland fire management strategy
    Our commitments--wildfire response, risk-informed performance, 
support to states and local agencies, and assistance to fire-adapted 
communities--are consistent with the recently completed National 
Cohesive Wildland Fire Management Strategy (Cohesive Strategy). The 
Cohesive Strategy has been embraced by the wildland fire community with 
statutory authority over wildland fire: federal, tribal, states, 
counties, municipalities, and local fire departments. The wildland fire 
community, through the auspices of the Wildland Fire Leadership Council 
(lead by Secretaries from the Departments of Agriculture, the Interior, 
and Homeland Security), developed the Cohesive Strategy. The Forest 
Service and DOI were a catalyst for the nation-wide collaborative 
effort among wildland fire organizations, land managers, and policy 
making officials representing federal, state and local governments, 
tribal interests, and non-governmental organizations. This blueprint 
provides a common underpinning for all entities with statutory 
responsibilities for wildfire. Federal, non-federal, and tribal 
wildland fire management partners are now engaged in ensuing phases 
where, development of regional assessments and strategies will support 
completion of a national risk trade-off analysis, due next year.
    The three main components of the Cohesive Strategy provides a 
framework for the wildland fire program as a whole. These components 
are:

  <bullet> Restoring and Maintaining Resilient Landscapes
  <bullet> Creating Fire-Adapted Communities
  <bullet> Wildfire Response

Restoring and Maintaining Resilient Landscapes
    The first component of the Cohesive Strategy involves the 
restoration of landscapes to help promote ecosystem health and 
resiliency. Wildland fire has a valuable natural role in many 
ecosystems, helping to regulate forest and rangeland composition. We 
continually strive to safely allow fire to play its natural role in 
creating resilient landscapes. However, many ecosystems across the 
country are out of balance and are in need of restoration. This 
ecological imbalance is manifested by an increased fuel accumulation 
and infestation by invasive pests and results in ecosystems that are 
more threatened by wildfire. A high-risk fire environment may result in 
adverse effects on natural resources and poses great risks for local 
communities. Added to the effects of climate change, these imbalanced 
ecosystems often lead to higher fire risk potential, which contribute 
to extreme fire behavior and severe fire effects, such as significant 
impacts to municipal water supplies.
    By managing vegetation and restoring natural function and the 
resiliency of the land, we can positively influence fire behavior and 
minimize the negative impacts of fire. Through a combination of 
mechanical treatment and managed fire, we can improve the health of 
some fire-adapted ecosystems and prevent heavy accumulations of highly 
flammable fuels. In FY 2010, the Forest Service treated over 2 million 
acres for hazardous fuels reduction, with the majority in the Wildland 
Urban Interface. This fiscal year, we have already treated over 900,000 
acres.
    The Integrated Resource Restoration (IRR) line item proposed in the 
President's FY 2012 budget, applied in conjunction with our hazardous 
fuels program, will help the agency more efficiently restore ecosystems 
balance. Combining the existing programs will improve land management 
professionals ability and flexibility to meet a wider range of 
ecological, economic and social values than possible under the current 
structure. This will enable more work to get accomplished on the 
ground. IRR will allow larger projects to be undertaken through the 
emphasis on collaboration with stakeholders, internal multi-
disciplinary planning, and a well-crafted accountability system.
    In addition, the Forest Service will continue to expand community 
engagement in restoration efforts on National Forest System land 
through the Collaborative Forest Landscape Restoration (CFLR) Program. 
In FY 2010, 10 CFLR projects in Idaho, California, Colorado, Arizona, 
New Mexico, Montana, Washington, Oregon, and Florida were funded by the 
CFLR Fund. CFLR projects are proposed through multi-stakeholder 
collaborative planning at a local level, nominated by the Regional 
Foresters to the Secretary, who takes into consideration 
recommendations made by an advisory committee.
Creating Fire-Adapted Communities
    The second component of the Cohesive Strategy involves working 
collaboratively with non-governmental organizations as well as federal, 
state, local and tribal governments to strengthen fire-adapted human 
communities. An all-lands approach, along with emphasizing individual 
responsibility, is critical to minimizing risk to communities.
    This second component of the Cohesive Strategy relies on 
coordination and work already taking place among the federal agencies, 
states, and communities. Community Wildfire Protection Plans (CWPPs) 
play an important role at the local level in providing specific risk-
assessments to a county or community. CWPPs are a comprehensive 
wildfire planning tool for a community that is supported by the the 
Federal Government in partnership with State forestry agencies. By 
providing Federal support to state and local wildland fire agencies, we 
enhance our capability to work together to create these important plans 
and bring awareness of shared wildfire risk to communities.
    Additional activities include:

  <bullet> The International Association of Fire Chiefs, with help from 
        the Federal Government, sponsored a forum to identify, share 
        opportunities, and prioritize mitigation needs for a wide range 
        of private sector partners.
  <bullet> The Fire-Adapted Communities Project gathers all wildland 
        urban interface mitigation tools into one toolbox to assist in 
        the implementation of Community Wildfire Protection Plans by 
        providing communities, organizations, fire departments, and the 
        public with the information they need to reduce their risk of 
        wildfire.
  <bullet> The Ready, Set, Go! and Firewise projects are part of our 
        Fire-adapted Communities program. With our State, local and NGO 
        partners, we are reaching out to increase the 600 Firewise 
        communities we have today to over 1,000 communities by 2013. By 
        combining Firewise with the Ready, Set, Go! principles, we are 
        working together to make communities in fire-prone areas more 
        resilient to catastrophic loss.
Wildfire Response
    In preparing for the 2011 fire season, the Federal Government 
worked along with the tribes and the states to ensure we had adequate 
firefighting resources prepared and positioned. Fire managers will 
assign local, regional, and federal firefighting personnel and 
equipment based on anticipated fire starts, actual fire occurrence, 
fire spread, and severity. All federal, state, and tribal wildland fire 
agencies are represented in the National Wildfire Coordination Group. 
This group provides oversight to the National Interagency Coordination 
Center, located at the National Interagency Fire Center in Boise, 
Idaho, and oversees coordinated wildland firefighting responses 
throughout the nation. When fire resources in one geographic area are 
in short supply, the NWCG helps to prioritize, allocate, and, if 
necessary, re-allocate the resources. Prioritization ensures 
firefighting forces are positioned where they are needed most. Fire 
resources such as personnel, equipment, aircraft, vehicles, and 
supplies are dispatched and tracked through an integrated national 
system developed by the Forest Service.
    In specified instances, the Department of Defense resources may be 
available to assist. Assistance also may be available under standing 
international agreements with Canada, Mexico, Australia, and New 
Zealand if the Secretary determines that no firefighting resources 
within the United States are reasonably available.
                       wildland fire preparedness
Firefighting Forces
    Wildfire responses in the United States involve not only the 
resources of the Federal Government, but also employees from States, 
tribal governments, and local governments, contract crews, and 
emergency/temporary hires. For the 2011 fire season, the available 
firefighting forces--firefighters, equipment, and aircraft--are 
comparable to those available in 2010, more than 16,000 firefighters 
available from the Department of Agriculture and the Department of the 
Interior with approximately70% coming from the Forest Service. The 
levels of highly-trained firefighting crews, smokejumpers, Type 1 
national interagency incident management teams (the most experienced 
and skilled teams) available for complex fires or incidents, and Type 2 
incident management teams available for geographical or national 
incidents, also are comparable to those available in 2010. 
Additionally, the federal wildland fire fighting community work with 
State and local fire departments, which serve a critical role in our 
initial attack, and in many cases, extended attack success. The Forest 
Service uses its authority to provide State Fire Assistance funds to 
State partners to support State fire management capacity. We could not 
achieve the successes we have without these key partners.
Aviation
    Nationally, the wildland firefighting agencies continue to employ a 
mix of fixed and rotor wing aircraft. The number of these aircraft may 
fluctuate depending on contractual and other agreements. Key components 
of the Forest Service 2011 aviation resources include:

  <bullet> Up to 19 contracted large air tankers (comprising 90% of all 
        large air tankers);
  <bullet> 77% of the federal wildland fire response helicopters, 
        including:

    --26 Type 1 heavy helicopters;
    --41 Type 2 medium helicopters on national contracts; and
    --52 Type 3 light helicopters on local or regional contracts;

  <bullet> 15 Leased Aerial Supervision fixed-wing aircraft;
  <bullet> Up to 12 Smokejumper aircraft;
  <bullet> 2 heat detecting infrared aircraft;
  <bullet> 2 single engine air tanker aircraft (SEATs); and
  <bullet> 300 call-when-needed helicopters.

    The Forest Service maintains a contract for a 100-passenger 
transport jet to facilitate rapid movement of firefighters during the 
peak of the fire season. The Forest Service also coordinates closely 
with the Department of Defense in maintaining eight Modular Airborne 
Fire Fighting Systems (MAFFS) that can be deployed by Air National 
Guard and Air Force Reserve C-130 aircraft. The MAFFS program provides 
surge capability for air tanker support on large fires.
Fire Safety
    The Forest Service initiated, and continues to use cutting-edge 
risk management analyses in our strategic and tactical fire management 
decisions. We have implemented a Risk Management program that focuses 
on improving wildfire decisions. This program is enhancing the skill of 
decision makers by allowing managers to evaluate risk and benefit 
relative to the overall objective of any given wildfire and reducing 
the level of uncertainty when determining how to respond to a fire. A 
critical component of the program is furthering the development of 
tools to help managers and firefighters make better informed decisions 
about wildfire response. The Wildland Fire Decision Support System 
(WFDSS) is an example of a tool that assists fire managers and analysts 
in making strategic and tactical decisions for fire incidents. WFDSS 
uses fire behavior modeling, economic principles, and information 
technology combined with land management plans and spatial analysis of 
a fire to establish a solid foundation for our professional wildland 
firefighters to make mindful, risk-informed decisions on wildland 
response. It continues to be a valuable analysis tool in wildland fire 
management. Our emphasis on safety is a core value to the agency.
Suppression Funding
    Finally, the amount of suppression funding appropriated to the 
Forest Service Wildland Fire Management Account for FY 2011 is similar 
to the amount appropriated for FY 2010. In addition, the Forest Service 
has funding from prior fiscal years to allow us to respond to a worse-
than-average fire season. These funds together with the FLAME Fund, 
established by the FLAME Act of 2009, will minimize the need to 
transfer funds from non-fire accounts to the Wildland Fire Management 
Appropriation for fire suppression.
Current Wildland Fire Activity
    To date, approximately four million acres across the country have 
burned this calendar year, predominately in the southeast, Texas, 
Oklahoma, and Arizona\1\. Early spring months were drier than typical 
across sections of the south and southwest states. The total number of 
individual fires across the country is less than the ten-year average, 
but nearly three times more acres have burned than the ten-year average 
for this time of year. The State of Texas experienced a higher than 
normal number of fires and acres burned due to a combination of 
prolonged drought with dry, windy conditions. Drought is forecast to 
persist or worsen across the south and southwest parts of the nation. 
The Interagency Fire Predictive Services group is calling for above 
normal fire potential through June across this area, including Arizona, 
New Mexico, western Texas, southern Colorado, and Florida. Above normal 
significant fire potential is also expected in portions of Alaska and 
Hawaii.
---------------------------------------------------------------------------
    \1\ National Interagency Fire Center, National Year-to-Date Report 
on Fires and Acres Burned by State and Agency, March 21, 2011
---------------------------------------------------------------------------
Arizona Fires Update as of Testimony Submission--June 10, 2011
    In response to the large fires burning in Arizona, we have deployed 
more than 2,500 interagency firefighters to protect lives and property 
through a joint incident command system, and we are coordinating the 
resources available at local, state and federal levels. While we have 
prevented the loss of many homes, and have had no loss of life, we 
anticipate that the current dry and windy conditions will lead to 
several difficult days of firefighting ahead of us to prevent 
additional acreage within the state impacted. We are working with local 
partners to strategically deploy staff and equipment to minimize the 
impact on homes and communities within the region. The three large 
fires in Arizona (e.g., the Wallow fire, Horseshoe 2 fire, Murphy fire) 
are human caused and are still under investigation.
    This concludes my statement. I would be happy to answer any 
questions that you may have.

    The Chairman. Thank you very much.
    Ms. Thorsen, go right ahead.

 STATEMENT OF KIM THORSEN, DEPUTY ASSISTANT SECRETARY FOR LAW 
ENFORCEMENT, SECURITY, AND EMERGENCY MANAGEMENT, DEPARTMENT OF 
                          THE INTERIOR

    Ms. Thorsen. Thank you, Chairman Bingaman, Ranking Member 
Murkowski, members of the committee. I appreciate the 
opportunity to appear before you today to discuss the 
Department of the Interior's readiness for the 2011 wildland 
fire season.
    I am Kim Thorsen. I am the Deputy Assistant Secretary for 
Law Enforcement, Security, and Emergency Management at 
Interior. In this capacity, I provide leadership and oversight 
to the Department's wildland fire program.
    If I may, I would like to submit my full statement for the 
record and summarize the testimony.
    The 2011 fire season began in earnest in late April, early 
May with the ignition of three wildfires that continue to burn 
in Georgia and North Carolina. Fire season then moved to the 
southern area of the United States, strongly impacting the 
drought stricken States of Oklahoma and Texas, and is now in 
full swing in the southwestern States.
    The drought is forecasted to persist or worsen across much 
of the southern half of the Nation.
    More than 20 percent of the United States is managed by the 
Department, and together with the Forest Service and our other 
partners at the State, tribal, and local level, we respond to 
thousands of wildfires across the country every year. 
Historically and collectively, we have achieved a high success 
rate in suppressing fires during the initial attack stage.
    So far this calendar, more than 31,000 fires have burned 
over four million acres.
    In Alaska, where the Department has significant land 
management responsibilities, above normal significant fire 
potential is forecast for portions of the Yukon and Kenai 
Peninsula where dead and downed insect killed trees and heavy 
grass understory exist.
    The Department, together with the Forest Service, is 
working to prevent and reduce the effects of large unwanted 
fires to preparedness activities like risk assessment, 
prevention and mitigation efforts, mutual aid agreements, 
firefighter training, acquisition of equipment and aircraft, 
and community assistance, and hazardous fuels reduction.
    For the 2011 fire season, the Department has been and 
continues to be prepared. The variable firefighting forces are 
comparable to those available for the last several years. We 
will deploy approximately 3,500 firefighters, 135 smoke 
jumpers, 17 type one crews, 750 engines, more than 200 other 
pieces of heavy equipment, and over 1,300 support personnel to 
support those fires.
    Where possible, the Department will emphasize the hiring of 
returning veterans to fill the ranks of its firefighting 
forces.
    Aviation assets for fiscal year 2011 are comparable to 
prior years as well, with exclusive use contracts in place for 
two water scooping aircraft, 37 helicopters, and 22 other 
aircraft, such as smoke jumper and air attack platforms. Nearly 
60 single engine air tankers are expected to be available 
through call when needed contracts.
    The Department's commitments are in line with the recently 
completed phase one of the National Cohesive Wildland Fire 
Management Strategy. Under the direction of the Wildland Fire 
Leadership Council, the wildland fire community developed a 
blueprint to collaborate on achieving a shared vision to 
``safely and effectively extinguish fire when needed, use fire 
where allowable, manage our natural resources, and, as a 
Nation, live with wildland fire.''
    The phase one blueprint called for restoring and 
maintaining resilient landscapes, creating fire adapted 
communities, and wildfire response. During phase two, we will 
continue to work with our Federal, tribal, State, and local 
partners to assess wildfire risk, develop regional goals, and 
create a portfolio of strategic actions and activities.
    In phase three, we will bring forth the regional strategies 
into a national strategy where we will create a national risk 
tradeoff analysis. This national collaborative effort 
represents a new strategy, a new path forward, and perhaps a 
new way of thinking about wildland fire, and may pave the way 
for national, not just Federal, wildland fire management 
policy, which is not just comprehensive in its scope, but also 
consistent, coordinated, and complementary across all 
jurisdictions.
    The Department has made significant improvements in is 
hazardous fuels prioritization and allocation system to ensure 
funds are directed to the highest priority projects in the 
highest priority areas. We developed and issued policy that 
outlines the hazardous fuels prioritization allocation process, 
and enhanced our computer systems that identify high priority 
areas for treatment and high priority projects across the 
Nation.
    The Department will continue to pursue efficiencies and 
reforms that reduce project costs, increase performance, and 
ensure the greatest value from invested resources, all while 
strengthening the accountability and transparency of the way in 
which taxpayer dollars are being spent.
    In summary, the Department of the Interior is prepared to 
meet the wildland firefighting challenges of today, tomorrow, 
and beyond. We will strive to maintain customary operational 
capabilities and continue to improve our integrated approach to 
wildland fire within the Department.
    This concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Ms. Thorsen follows:]
 Prepared Statement of Kim Thorsen, Deputy Assistant Secretary for Law 
  Enforcement, Security, and Emergency Management, Department of the 
                                Interior
    Chairman Bingaman, Ranking Member Murkowski, and members of the 
Committee, thank you for the opportunity to testify today on Department 
of the Interior's readiness for the 2011 wildland fire season. The U.S. 
Department of the Interior (DOI), along with the Forest Service within 
U.S. Department of Agriculture have been and continue to be prepared 
for the 2011 wildland fire season.
    The 2011 fire season began in earnest in late April / early May, 
with the ignition of three large wildfires that continue to burn in 
Georgia and North Carolina. More than twenty percent of the United 
States (490 million acres) is managed by the bureaus within DOI, with 
fire management responsibilities that stretch from Florida to Alaska, 
from Maine to California. Historically and collectively, DOI has 
achieved a high success rate in suppressing fires during the initial 
attack stage.
    Wildland fire behavior and our response are influenced by complex 
environmental and social factors as discussed in the 2009 Quadrennial 
Fire Review (QFR). Such factors include the effects of climate change, 
cumulative drought effects, continued risk in the Wildland Urban 
Interface, and escalating emergency response.
    Nationally, already this fiscal year, approximately more than 
46,000 fires have burned more than 4.5 million acres (this calendar 
year, approximately more than 31,000 fires have burned over 4 million 
acres), predominately in the southeast (Texas and Oklahoma) and now the 
southwest (Arizona and New Mexico) on federal and non-federal lands. 
Drought is forecast to persist or worsen across much of the southern 
half of the nation. And in Alaska, where the Department has significant 
land management responsibilities, above normal significant fire 
potential is forecast for portions of the Upper Yukon and Kenai 
Peninsula where dead and down insect-killed trees and heavy grass 
understory exist.
    For the 2011 fire season, available firefighting forces within the 
Department of the Interior--firefighters, equipment, and aircraft--are 
comparable to those available for the last several years. Among its 
bureaus, the Department will deploy approximately 3,500 firefighters, 
135 smokejumpers, 17 Type-1 crews, 750 engines more than 200 other 
pieces of heavy equipment (dozers, tenders, etc.) and about 1,300 
support personnel (dispatchers, fire cache, etc) ; for a total of 
nearly 5,000 personnel. Where possible, the Department will emphasize 
the hiring of returning veterans to fill the ranks of its firefighting 
forces.
    Aviation assets for FY 2011 are comparable to prior years as well, 
with exclusive use contracts in place for 2 water scooping aircraft, 37 
helicopters, and 22 other aircraft (smokejumper, air attack, etc.) 
Nearly 60 single-engine air tankers (SEATs) are expected to be 
available through call-when-needed contracts.
    The federal government wildland fire agencies are working with 
tribal, state, and local government partners to prevent and reduce the 
effects of large, unwanted fires through preparedness activities like 
risk assessment, prevention and mitigation efforts, mutual aid 
agreements, firefighter training, acquisition of equipment and 
aircraft, and dispatching; community assistance and hazardous fuels 
reduction.
    All these commitments are in line with the recently completed Phase 
I of the National Cohesive Wildland Fire Management Strategy. The 
wildland fire community, under the direction of the Wildland Fire 
Leadership Council (lead by Secretaries from the Departments of 
Agriculture, Interior, and Homeland Security), has developed a 
blueprint for all entities with statutory responsibilities for wildfire 
to collaborate on achieving a shared vision to ``safely and effectively 
extinguish fire, when needed; use fire where allowable, manage our 
natural resources, and as a nation, live with wildland fire''. The 
blueprint called for: restoring and maintaining resilient landscapes, 
creating fire adapted communities, and wildfire response. In addition, 
the federal government is continuing to work with our non-federal 
partners to complete Phase II of the Cohesive Strategy this fiscal 
year, which will develop regional goals and portfolios of actions and 
activities. Phase III would be a national risk trade-off analysis. This 
national collaborative effort represents a new strategy, a new path 
forward and perhaps, a new way of thinking about wildland fire and may 
pave the way for national, not just federal, wildland fire management 
policy which is not just comprehensive in its scope, but also 
consistent, coordinated and complementary across all jurisdictions.
    Until then, DOI continues to take full advantage of the current 
Implementation Guidelines for the Federal Wildland Fire Management 
Policy. Our unwavering commitment to firefighter and public safety in 
managing wildfire is the foundation of the fire management program 
within each DOI bureau. We will continue to respond quickly and 
effectively to control unwanted wildland fires. Initial action on 
human-caused wildfire will continue to suppress the fire at the lowest 
risk to firefighter and public safety. When appropriate, we will also 
allow fire managers to manage a fire for multiple objectives and 
increase managers' flexibility to respond to changing incident 
conditions and firefighting capability, while strengthening strategic 
and tactical decision implementation supporting public safety and 
resource management objectives. Our actions will be supported by the 
Wildland Fire Decision Support System (WFDSS) and our enhanced ability 
to analyze fire conditions and develop risk informed strategies and 
tactics, resulting in reduced exposure to unnecessary risk during fire 
incidents.
    The President's Fiscal Year 2012 Budget reflects the commitment of 
the Administration to implement program reforms to ensure fire 
management resources are focused where they will do the most good. The 
2012 budget proposes a total of $821.5 million to support the fire 
preparedness, suppression, fuels reduction, and burned area 
rehabilitation needs of DOI. The 2012 budget request fully funds the 
inflation-adjusted 10-year average of suppression expenditures of 
$362.6 million, with the funding split between $270.6 million in the 
regular suppression account and $92.0 million in the FLAME Fund. 
Consistent with the FLAME Act, the regular suppression account will 
fund the initial attack and predictable firefighting costs, while the 
FLAME Fund will fund the costs of the largest, most complex fires and 
also serve as a reserve when funds available in the regular suppression 
account are exhausted.
    The President's FY 2012 Budget provides DOI sufficient funding to 
fully cover anticipated preparedness and suppression needs. The Budget 
also recognizes the need to invest not just in firefighting related 
activities, but in hazardous fuels reduction and community assistance, 
and rehabilitation of burned areas as well. The budget for the 
Hazardous Fuels Reduction program focuses the program on projects in or 
adjacent to the wildland-urban interface and the Department has made 
significant improvements to its Hazardous Fuels Prioritization and 
Allocation System to ensure funds are directed to the highest priority 
projects in the highest priority areas. DOI developed and issued policy 
that outlines the Hazardous Fuels Prioritization and Allocation Process 
and has enhanced the commuter systems that identify high priority areas 
for treatment and high priority projects across the nation. We have 
also worked collaboratively to improve the decision and documentation 
process. In fiscal year 2011, the bureaus within the Department have 
funded high priority projects in high priority areas which will result 
in the mitigation of risks to communities and their values. The 
Department will continue to pursue efficiencies and reforms that reduce 
project cost, increase performance, ensure the greatest value from 
invested resources, all while strengthening the accountability and 
transparency of the way in which taxpayer dollars are being spent.
    In summary, the Department of the Interior is prepared to meet the 
wildland firefighting challenges of today and tomorrow. DOI will 
maintain customary operational capabilities and continue to improve the 
effectiveness and efficiency of the fire management programs. These 
efforts are coupled with other strategic efforts and operational 
protocols to improved oversight and use of the latest research and 
technology to ensure fire management resources are appropriately 
focused. Specifically, these actions include:

  <bullet> Continued reduction of hazardous fuels on priority lands in 
        wildland-urban interface areas with its hazardous fuels 
        reduction funds that present the greatest opportunity to reduce 
        the risk of severe damaging fires in the future;
  <bullet> Continued improvement of decision-making on wildland fires 
        by leveraging the Wildland Fire Decision Support System 
        capabilities to predict what may happen during a fire to 
        safeguard lives, protect communities and enhance natural 
        resources ecosystem health;
  <bullet> Continued enhancement to wildfire response and efficiency 
        that comes from use of national shared resources, pre-
        positioning of firefighting resources, and improvements in 
        aviation management;
  <bullet> Continued review of fire incidents to apply lessons learned 
        and best practices to policy and operations; and
  <bullet> Continued strategic planning in collaboration with the 
        Forest Service and our state, tribal, and local government to 
        develop meaningful performance measures and implementation 
        plans to address the challenges posed by wildfires in the 
        nation.

    Although the Department of the Interior and the Department of 
Agriculture (USDA) are offering separate written statements today, 
please be assured that the Departments work collaboratively in all 
aspects of wildland fire, along with our other federal, tribal, state 
and local partners. Our statements have been coordinated to ensure a 
well rounded presentation of our collective fire management program, 
the common challenges that we face, and our recent efforts to 
effectively meet these challenges. The two Departments collaborate in 
the Federal Fire Policy Council, and met just last week to explore some 
of the issues that are faced by senior executives during periods of 
significant wildfire activity and to reaffirm their mutual 
understanding of roles and responsibilities and develop appropriate 
response scenarios prior to any national emergencies.
    Together, we are staffed to provide safe and effective fire 
management with available firefighting forces--firefighters, equipment, 
and aircraft. And at the same time, we continue to improve 
effectiveness, cost efficiency, safety, and community and resource 
protection in concert with each other.
    This concludes my statement. Thank you for your interest in the 
Wildland Fire Program and the opportunity to testify before this 
Committee. I welcome any questions you may have and appreciate your 
continued support.

    The Chairman. Thank you both very much.
    Chief Tidwell, let me ask you first. I think you somewhat 
answered this in your opening statement, but as we look at the 
situation in my State and around the country, we have got more 
and more fires starting up. We have a fire reported today that 
started yesterday at Carlsbad Caverns National Park. We have a 
fire up around Raton, which has caused the closing of I-25 
going between Albuquerque and Denver. In addition, of course, 
Senator Kyl referred to the fact that the Wallow fire out of 
Arizona is now coming over and threatening the town of Luna, 
New Mexico.
    What I understood you to say was that you believe the 
Forest Service has the resources necessary to respond to these 
fires and the others going on around the country. Is that an 
accurate understanding of your view?
    Mr. Tidwell. Yes. With the resources that all of the 
partners bring to the wildland firefighting mission, we believe 
that we have adequate resources to deal with the fires that we 
have on the landscape today, with an anticipation of new starts 
every day.
    I want to stress that we always hold resources in reserve 
to deal with initial attacks so that we always have resources 
to be able to put on those to stop these new fires from 
becoming large. But with everything that we have on--that is 
burning today, plus what we anticipate over at least in the 
south for another 60 to 45 days, we believe we have adequate 
resources.
    The Chairman. Thank you. Last year, the Inspector General 
issued a report that said that regarding the firefighting work 
force, it concluded that the Forest Service's firefighter work 
force is shrinking at the same time as its need for qualified 
firefighters and emergency response managers is increasing. The 
Inspector General said that insufficient planning could both 
increase the Forest Service's already significant fire 
suppression expenditures through the higher costs of using non-
Forest Service employees and jeopardize the response 
capabilities of both the Forest Service and the assisting 
agencies. Could you give us a little explanation as to how you 
are responding to that report from the Inspector General?
    Mr. Tidwell. We share the concerns from the Inspector 
General that we need to ensure that we have a firefighter force 
in the future. That includes not only the firefighters, but 
also the overhead positions, the incident commanders that we 
need to be able to carry out, you know, this mission in the 
future.
    So, I have tasked my team to be looking at some of the 
things that we can do differently to ensure that we are able to 
recruit future firefighters and, at the same time, to look at 
ways that we can accelerate some of the training. Many of our 
incident commanders, they take over 20 years to be able to 
acquire the level of experience and training that they need to 
be an incident commander. So, one of the things that we wanted 
to look are training requirements and see how we can accelerate 
that maybe with additional training assignments, and at the 
same time, to ensure they have the expertise. But that we want 
to make sure that we have that command system in place, the 
personnel for the command system, into the future.
    The Chairman. The large fires that we are seeing, this 
Wallow fire being one example, remind us of why a landscape 
scale approach to fuel reduction and forest restoration is 
important. Could you tell us how you think this new 
collaborative forest landscape restoration program is going, 
and whether you think that is going to be an effective approach 
in reducing the risk and the costs of these severe wildfires?
    Mr. Tidwell. Mr. Chairman, I want to thank you for your 
leadership to provide us with that authority. That is, I 
believe, the model for the future, where we can bring people 
together from all interests to look at these much larger areas 
than we ever have before. In the case with the these projects, 
there are over 50,000 acres. Then to also provide a commitment 
for long-term funding, not just a 1-year commitment of funds. 
This will allow us to be able to look at these much larger 
landscapes, ideally do environmental analysis for much larger 
areas, thus reducing our planting costs, and be able to 
actually treat enough acres on the landscape where it makes a 
difference.
    Senator Kyl mentioned that in Arizona, where the White 
Mountain stewardship project, we have been able to treat over 
40,000 acres out of the 150,000 that we had hoped to treat 
during the 10-years. Those projects, as I pointed out in the 
picture, made the difference in those communities. It is a 
difference from just losing a few homes to losing all of those 
homes.
    That is the type of work that we need to do, but we need to 
do it on a much larger scale. I think the Collaborative Force 
Landscape Restoration projects are definitely the model as we 
move forward, and it is something we want to continue to expand 
on.
    We did ask for full funding both in fiscal year 2011 and 
also in fiscal year 2012. We appreciate the support from 
Congress for the funding we received in 2011. I would really 
encourage full funding for those projects next year.
    The Chairman. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you very much, Mr. Chairman.
    Chief, Senator Kyl, in speaking of the Arizona fires, 
talked about the costs that are associated with it. I think we 
all recognize that just the dollars that are out there are 
really quite considerable.
    It is my understanding that the East Volkmar fire, which we 
have been following, has surpassed that $5 million range. It is 
estimated at about $8 million. By the time everything is 
contained, I think Senator Kyl mentioned, it will be over $40 
million for the Wallow Creek and the others there.
    Back in 2009, during the 2009 edition of Wildland Fire, a 
team of scientists said that the total short-term and long-term 
costs plus loss attributed to wildfire typically attains 
amounts that are 10 to 50 times or more reported suppression 
expenses. Do you agree with that? I mean, when we are talking 
about the costs of these fires, are we being comprehensive and 
inclusive in understanding it? Have we really been able to 
identify what the costs associated with these wildland fires 
are?
    Mr. Tidwell. Yes, Senator. You know, we have not reviewed 
those exact figures, but without any question, the true costs, 
the total costs, of these large wildland fires goes way beyond 
the suppression costs. Just with the fires we are seeing in 
Arizona, the emergency rehabilitation that we will need to do, 
it could easily match the total suppression costs by itself. 
When you factor in the loss of the resources, the impact to the 
livestock operators, even though it may only be for a year or 
so, plus the other damages to fences, there is just no question 
that those total costs go way beyond the suppression costs.
    Senator Murkowski. Does your agency do that calculation, 
above and beyond the suppression costs? Because we can identify 
those. But do you in fact complete a total cost study of a 
whole season's worth of fires?
    Mr. Tidwell. We have not done that in the past.
    Senator Murkowski. Can you do that?
    Mr. Tidwell. It is something I would like to visit with you 
to see--if some of the information that we already have in our 
modeling that we use in our decision support system, that may 
provide you the answer that you are looking for. So, I would 
like to visit with you on that.
    Senator Murkowski. I would like to do that, and I look 
forward to that.
    Let me ask you about the Alaska fire crew recruitment and 
the issues that are associated with that. We have had this 
conversation before where we have teams of Alaskans--native 
fire crews that are standing by the ready to go out and work on 
the fires. It is always a debate as to who we bring in. We are 
told that part of the reason that we do not use the local teams 
is they lack the qualifications needed to serve on the Federal 
fires. This is something that my constituents are bringing up 
with me repeatedly. They are saying, ``OK, if we do not have 
the training, why not provide that training so that you do not 
have that expense of bringing folks up from the lower 48?
    On my trip back home this weekend and the weekend before, I 
sat next to a firefighter from Oregon, and then a firefighter 
from California who were on their way up. I welcome them. We 
need the help. But I also want to know what is it that we can 
do to ensure that the Alaskan native crews actually get out on 
a job. This is their part of the country. They know and 
understand it well. What do we need to be doing better?
    Mr. Tidwell. Senator, the Alaskan native crews are handled 
through the Department of Interior, but I will say that ideally 
we would like to have those crews that are trained locally. It 
is more cost effective to be able to have those folks there, 
and at the same time then after the Alaska fire season is over, 
we often then bring those crews down into the lower 48, where 
they will often spend another month or two before they get to 
go back home.
    Senator Murkowski. All right.
    Mr. Tidwell. So, it takes a combination of both. It is why 
we are so successful in the way that we all work together, and 
that these firefighting resources are mobile. And there may be 
times that we do need to bring personnel up to Alaska, but we 
always try to reach out and train local crews so they are 
there. They are available, and so we do not have to wait for 
them to be transported.
    Senator Murkowski. We are looking also to the cost of it.
    Mr. Tidwell. Yes.
    Senator Murkowski. It takes a lot to move these men and 
women back and forth. If we have got the locally trained crews 
and they are good, which they are; we have got some great hot 
shot crews up there--that is one way that we can be looking at 
the cost side of this.
    I hope we are going to have an opportunity for a second 
round, Mr. Chairman, because I have got a lot more questions 
here. Thank you.
    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Chief, all the senators are saying--those from the west--
that our forests are just taking a beating because of 
insufficient thinning. It is obvious that these overstocked 
stands are just magnets for, you know, disease and insects, and 
when they are dry, they just go up in smoke. Every time you all 
come on up here, you talk to us, particularly when we highlight 
some of the innovative approaches that we are seeing around the 
country. Like on the east side of Oregon, you all said we have 
got to have more money. We have got to have more money.
    We went and looked at your fiscal year 2012 budget 
justification. You proposed rescinding close to $200 million 
from the fiscal year 2011 budget, and on page 11-14 of the 
budget justification, you proposed more reductions in the 
hazardous fuels budget.
    So, I am trying to reconcile these two statements, the one 
that you need more money and, second, actually what is in the 
budget. So, why do you not tell me how those two are consistent 
to start with?
    Mr. Tidwell. Senator, with our fiscal year 2011 funding, 
especially for hazardous fuels, it is basically the same as we 
had in fiscal year 2010. In fiscal year 2012, there is a slight 
reduction. But the big change in our proposal for fiscal year 
2012 is this concept of having an integrated resource 
restoration budget line item. We want to focus our hazardous 
fuel funding on the wildland urban interface, and then we want 
to take some of that fuels funding and put it into the 
integrated resource restoration so that in the landscapes--the 
forests that are outside the wildland urban interface, we can 
take this much more integrated approach to be able to not only 
address the need to reduce that hazardous fuel through 
thinning, but also accomplish the watershed improvement work, 
the wildlife habitat improvement work. By putting those funds 
together, we feel that we will increase our effectiveness, and 
at the same, not ask for more funding.
    Senator Wyden. I just have to tell you, I think this is 
still, as it relates to the budget, kind of funny money. I 
mean, you all talk to us about the integrated resources 
program, like that. You talk to us about the collaborative 
forestry program like that. We have essentially got one out of 
our nine, you know, forests. Every year, the problem just grows 
and grows. My own sense is I think if you do not deal with 
these reductions--you have said they are small; we do not see 
them as small--in the hazardous fuels program, this problem is 
just going to continue, you know, to grow. We are going to 
continue to bring it up. When it is dry, we are going to see 
these infernos. That is what these fires are in dry areas. They 
are not natural fires; they are infernos.
    So, let me ask you about one other point, and that is the 
Wildland Fire Aviation Program. This, as you know, has been 
under the microscope for what seems like, you know, eons. It is 
a fleet that is aging rapidly. Somehow, getting an adequate 
plan for the future just is not coming together. I mean, this 
has been almost the longest-running battle since the Trojan War 
to get you all to update this fleet. It was reported again in 
the papers. Why is it taking so long to get an adequate 
replacement fleet, and particularly, a plan so that we will 
know for certain when this is going to happen?
    Mr. Tidwell. Senator, as I mentioned earlier, we will be 
bringing our plan up here, you know, by the end of this summer. 
Some of the things that is taking the time is that we wanted to 
make sure that we had the information that we needed. We 
worked--in fact, the Department of Defense just completed a 
study that you requested for us to take a look at being able to 
use military aircraft on a full time purpose for wildland 
firefighting. They have completed their report. We are also 
still waiting for the report that the RAND Corporation has 
promised us in July that would look at what is the right mix 
between large air tankers, small air tankers, scoopers, et 
cetera?
    So, we have been gathering information, but at the same 
time, continuing to work with our contractors that have done a 
very good job to be able to maintain the existing fleet so that 
we can still respond where we need large air tankers.
    Senator Wyden. Can you give me your sense of a target date 
when the agency would have an adequate replacement fleet? I 
mean, just give us a ballpark when we could expect that fleet 
to be available to deal with the kind of emergencies that you 
know creates such a demand?
    Mr. Tidwell. What I envision is that we are going to be 
looking at every option that is available today and to be able 
to lay out a strategy that will continue to maintain an 
adequate fleet. We have an adequate fleet today. We want to 
make sure that we have that 10 years from now, 20 years from 
now. So, our recommendation will include a strategy that will 
allow us to work forward, and at the same time to work with our 
contractors to find ways to ensure that we will have that 
adequate fleet into the future.
    Senator Wyden. My time is up. I can just tell you, 
everybody remembers those two air tanker crashes that took the 
lives of pilots and maintenance personnel in 2002. I do not 
share your view that things, with respect to today's situation, 
are adequate. I think the government has got to do a lot 
better, and I hope we will accelerate the efforts.
    Thank you, Mr. Chairman.
    The Chairman. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Mr. Tidwell, I understand that new fire management policies 
are in place, and that sometimes when implementing these 
policies, it results in longer-burning fires at times that can 
adversely affect neighboring jurisdictions. What are you doing 
to work with local officials to resolve any conflicts that 
might develop as this happens?
    Mr. Tidwell. Senator, when a fire starts, and especially 
fires in the back country, we look at the opportunities to be 
able to manage those firs for some resource benefits if we have 
the right conditions and we have done the pre-planning.
    The first part of that, though, is to be able to sit down 
with the local jurisdictions, the local communities, and be 
able to talk through the strategies so that they have an 
understanding of what we are proposing. We want to be able to 
work together to be able to take those--use those 
opportunities, to actually use fire to help reduce some of fuel 
loading, and actually restore these systems.
    It is essential we do that together, and that is one of the 
first things that is done. Even at the start of the season, we 
want to sit down with our local communities to be able to 
explain what we would like to do if we get a start under these 
conditions and be able to talk about it with them and answer 
their concerns.
    Senator Lee. Thank you. On the issue of thinning and making 
our forests less vulnerable to fires, is there anything that 
can be done by way of allowing more selective harvesting of 
lumber in some of those areas to thin that out, and thereby 
reduce the risk of loss to fire?
    Mr. Tidwell. That is the key to our restoration work. It is 
the key to our wildland urban interface work is to be able to, 
as you saw in this one photo. We have numerous pictures around 
the country of this. Arizona is not the first place that we 
have seen this. By getting in there and thinning out these 
stands, it changes the fire behavior dramatically to the point 
where the fire will get out of the tops of the trees, get down 
onto the ground where our suppression efforts are then 
effective.
    The level of thinning is dependent on the conditions we 
have, the slope, how close the homes are, and also the 
vegetation types.
    Senator Lee. Thank you. Ms. Thorsen, cheatgrass is a 
problem throughout a lot of the west, including my State of 
Utah. How much of a problem do you think cheatgrass plays in 
paring your efforts toward fire prevention and in making fires 
worse when they break out?
    Ms. Thorsen. Senator, it is definitely part of the issue 
that we are facing when it comes to fire activity in the west. 
One of the things that we have got to help us in that arena is 
our hazardous fuels prioritization and allocation system, which 
will help us identify hazardous fuels dollars in areas that are 
high priority areas and high priority targets.
    Now, many of those are in the Woowie area, but we also 
funds throughout our bureaus that allow us to address a little 
bit of what the chief said. Habitat restoration so far is 
outside the Woowie or immediately adjacent to the Woowie. So, 
we have got some things that we are working on within the 
Department to address the very issue you are talking about.
    Senator Lee. OK. Thank you. Thank you, Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Chief Tidwell, 
good to see you again.
    The chairman mentioned earlier that climate change is one 
factor contributing to the fires that we are seeing. Can you 
comment on that, and on the impacts you think climate change 
will have on forest fires in the future?
    Mr. Tidwell. Yes, Senator. You know, what we are seeing 
today in Arizona and other parts of the south is an example of 
what our scientists say are the effects of climate change. 
Throughout the country, we are seeing longer fire seasons, and 
we are seeing snow packs on an average actually disappear a 
little earlier every spring. So, we have a longer fire season. 
Like the chairman pointed out, that with this change in 
climate, we are seeing a much increased frequency of 
disturbance events, such as drought. Not only are the droughts 
more frequent, they are also longer in length.
    So, in many parts of the west especially, we have seen our 
fire seasons increase more than 30 days from what we saw in the 
past. Our scientists believe this is contributed to the change 
in the climate.
    These large fires that we are seeing today, and we have had 
large fires in the past, but I will tell you, when I was out in 
Arizona last weekend, and I flew over the Wallow fire, and then 
stopped to talk to our crews, I have seen a lot of large fires 
in my career. But I tell you, when I flew up along the west 
side of that fire and saw about a 30-mile front of active fire 
on just one side of that, it definitely topped anything that I 
have seen before.
    This is a product of just the prolonged drought, very high, 
hot, dry conditions, and, of course the winds that Senator Kyl 
referred to.
    We need to do treatments on the land to be able to ensure 
our communities are safe. We need to do treatments to restore 
the resiliency, to be able to--so our forests can recover from 
these fires. But we are going to continue to have large fires, 
and the changing climate is one of the factors that will 
contribute to that.
    Senator Franken. I would just like to underscore that for 
members of our body who when we have discussions about the 
impact of climate, and we are talking about the cost of this. 
That is a lot of what we are talking about here today is the 
cost of this.
    Sometimes when we talk about energy and we talk about the 
amount of carbon dioxide that goes into our atmosphere, and we 
talk about cost, I think that it would be really good for 
members to take into account this kind of cost. This is a real 
cost. We are talking about real dollars here. A lot of the 
focus of this hearing today has been the costs of this. I think 
that it would be all well and good for members to understand 
this is related to climate change and how important it is for 
us to address this and for our--take national action to reduce 
our carbon emissions.
    Now, to that end, we are talking a lot about treating 
forests. I would like to ask about the opportunity that is 
sustainable, the harvest of forest biomass offers in enhancing 
both forest health and in providing a renewable resource for 
heating and cooling or power production, all three. How are you 
incorporating the sustainable harvesting of woody biomass in 
the Forest Service fire prevention plans, and using it to do 
the kind of--we do in Minnesota, which is use biomass to do, 
you know, district energy and do heating and cooling and using 
that to produce energy?
    Mr. Tidwell. Senator, one of the things that we need to 
continue to do in this country is to maintain our integrated 
wood products industry, so that the biomass that needs to be 
removed from these landscapes, that we can put it to beneficial 
use. Whether it is the sawlogs that need--sawlog diameter trees 
that need to be removed or the smaller diameter material that 
could be used for other products, or for biomass production--
utilization to produce energy, we need to make sure that we are 
in--finding ways to build that infrastructure, and especially 
with the smaller diameter material.
    We have the option to either pile it up--pay somebody to 
pile it up and burn it out there in the woods or we can we can 
find a way that we can transport it to a facility and be able 
to convert it into energy. I think that is a much better 
solution. So, we are going to continue to ask for funding in 
our biomass grant so that we can encourage this type of 
infrastructure development around the country, all over the 
country. It is not the solution, but it is just part of the 
solution. To me, it just makes better sense than piling this 
stuff up and burning it.
    Senator Franken. Thank you. It seems like a win-win to me.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Heller.
    Senator Heller. Thank you, Mr. Chairman, and thanks for 
holding this hearing. I apologize for my tardiness, but this is 
an important issue to most of us, especially western States, as 
we deal with these wildfires. I have got a son who attends the 
University of Southern California, and he is an engineering 
student. In the summer, Dad makes him fight fires. So, he is 
currently in Arizona fighting these fires, and he has been 
there for almost 2 weeks now. I think after 2 weeks, they pull 
them out, but he has been there at least--more than 10 days. 
Mom makes him call home every night to make sure that the 21-
year-old son is safe.
    The Chairman. Tell him to keep that fire out of New Mexico, 
would you please?
    Senator Heller. Actually, I told Senator Kyl he was 
assigned to his house, and that is why it burned the house 
around him, not his particular residence.
    Needless to say, I have seen fuel treatments in the Lake 
Tahoe Basin and seen this picture. It is exactly the occurrence 
when correct fuel treatments have been applied. The problem is 
it is very expensive, and we spend literally hundreds of 
millions of dollars with these fuel treatments, just in one 
basin. So, I cannot imagine how expensive that has to be try to 
do that on a much larger scale. But clearly, the actions and 
the efforts do work.
    One of the problems, of course, we have in Nevada is that 
85 percent of the State is owned by the Federal Government, and 
so what I concern myself is readiness of the Federal Government 
for some of these wildfires. I have had an opportunity to look 
at some of the Interior reports, and the outlook on the fire 
season, and the funding. I guess my concern, since I do have a 
son that is out there fighting these fires on behalf of the 
Bureau of Land Management and the efforts, of course, for the 
residents in Arizona, is if you have sufficient funding. I 
apologize again for my tardiness, but maybe you have already 
covered this question, but your physical readiness. If the 
funding is there, is the physical--and I am talking 
individuals, enough firefighters, enough equipment, the trucks, 
the planes, and everything. Do you feel prepared for this 
wildfire season?
    Mr. Tidwell. Senator, yes. We continue to be prepared this 
year. We have the adequate resources. I want to just assure you 
that I will speak for all of the agencies, that we would not 
allow your son or any other firefighter to go out unless they 
had the equipment and they had the training and they had passed 
our physical requirements to ensure that not only can they 
accomplish their mission to help suppress that fire, but they 
come home safely.
    Senator Heller. I believe that. I am sure that is that 
case. I have no reason to believe otherwise.
    I want to touch on one other topic quickly that I think is 
of concern, at least in the State of Nevada and the west as a 
whole, and that is the threat of these Endangered Species Act 
listing the sage grouse. When you have a wildfire like this, 
the impact that that has on the ecosystem, and the competition 
that you have between wildlife, such as sage grouse, elk, deer, 
and, for that matter, none-native species, like wild horses.
    If the bird gets listed and you have these fires, I think 
it will have a devastating impact when you try to balance 
between the act itself, the wildfires, and the competition that 
you have between these animals.
    Does the BLM have any plans to invest more heavily into 
pre-treatment in these areas when you have this kind of 
competition going on between the Act itself, between the fires, 
and between the animals competing for those specific grounds? 
Is there anything in--that you are doing that would give any 
priority to treatment in those threatened areas?
    Ms. Thorsen. Yes, Senator. The BLM is working very hard in 
trying to keep it off the endangered species list through 
hazardous fields treatments and their programs within the 
Bureau. So, it is a high priority for them. They have other 
things that they certainly need to balance, but it is 
absolutely on the list of their high priority items to ensure 
that that does not happen, for the very reasons that you talk 
about.
    Senator Heller. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. Tom, good to see 
you. Thank you for what you do, and we in Idaho are certainly 
happy you are where you are, and you have been very helpful to 
us when we have had issues with the Forest Service.
    I guess I come at this a little bit different than a lot of 
the people here. I think as I look around the room, probably 
you and I are the only ones with degrees in forest management. 
Maybe there is a handful of others in here, and probably not 
many of us, included, I am sure, Senator Franklin--or Senator 
Franken--have operated a Pulaski on a fighter line before. But 
when you do that, you get a different perspective, I think, 
than kind of theoretical approach to fire management and what 
have you.
    By the way, as far as climate change, we had a change in 
Idaho this year. We got record snow pack. We are probably not 
going to have much of a fire season, thank goodness. I have got 
watersheds that 1,000 times--that have 1,000 percent--excuse 
me--1,000 percent of the average, and it is just stunning the 
amount of snow that we have this year. So, our concern is 
probably going to be fire rather--or flood rather than fire.
    I appreciate the fine line you guys walk. It just amazes me 
when I hear people talk about climate change, with all due 
respect to Senator Franken. Generally, the people who talk 
about climate change and wring their hands about the fires are 
the exact same people who when you in the Forest Service tried 
to remove fuel from a particular watershed are the first ones 
that file suit to stop from removing that fuel. As all know, 
over the years--and when I am talking years, I am talking 
centuries--the original policy of the U.S. Government to do 
fire control after the big burn in 2009 and 2010 is what we are 
paying the price for now because the objective was to fight 
fires, all fires, and suppress them at all times and all 
places.
    So, that went along for a lot of years. We did a good job 
of suppressing fires. We never had a big burn again. Then over 
the years, the Federal Government has also had a policy, not 
through the government, but through the courts, to stop taking 
the fiber out of the forest. The result of that is we got 
today, which are catastrophic fires. As you know in Idaho, we 
have really suffered from that over the last decade.
    So, I appreciate the fine line that you walk and the 
difficulties that you have. We had, as I think you know, when I 
started in the State legislature in 1975, we had 42 operating 
mills in southern Idaho. Today we have two. One of them was 
built was built with stimulus money, so it's a Federal 
Government financed mill and not there because of the free 
market forces that should be operating. So, since we are down 
to these two mills, it is very difficult to remove fiber from 
the forest.
    So, again, I appreciate what you do. I appreciate the fine 
line you have to talk. I hope you will continue to educate 
people about how important it is to remove fuel. Removing fuel 
is so important when it comes to fire control, particularly in 
forests that are thriving and the ones that do produce the 
board feet that we could use.
    It is a difficult task. I know most people do not have the 
technical understanding of how acres vary from acre to acre of 
the difference and the amount of fuels on the ground. It is a 
great picture that you have provided here. I think you and I 
have probably seen--have seen examples of this all over. As you 
know, when you are out on a fire, you get the old maps out, you 
know, hope it hits one that is burned within the last 5 or 10 
years because that, of course, changes the dynamics of the fire 
entirely.
    The unfortunate thing about just plain fuel treatment is 
how economically inefficient that it is. Again, if it was 
turned over to the private sector to be able to remove it, to 
be able to use it, to saw it, to use it for bio fuels or 
whatever, it would certainly help us at the Federal level as 
far as the dollars and cents we spend doing this.
    So, thank you for what you do. We have, as you know, NIFC, 
national Fire Center, in Boise. The guys are probably going to 
be doing most of the work outside of Idaho this year, which is 
a good thing. It is our turn to not have the fires.
    Thank you for what you do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Let me ask another question.
    The FLAME Act, which you have referred to and which I have 
referred to, passed in the last Congress and it requires the 
agencies to periodically submit predictive estimates for 
wildfire suppression costs so that Congress is adequately 
informed of the fiscal situation as it is working on 
appropriations bills. To date, neither of the departments, 
Agriculture or Interior, have submitted those reports within 
the timeframes required by the Act. Obviously it is sort of a 
waste of the effort and resources to develop the reports if 
they are going to be obsolete by the time we get to see them. 
So, getting these reports cleared and submitted in a timely 
manner will be critical if we are going to be able to help 
avoid the fire borrowing situation we used to find ourselves 
in.
    So I would urge both of you to just take a message back to 
your respective departments that we need to come up with some 
way to get that information to the Congress in a timely way so 
we can act upon it. I do not know if either of you have any 
comments on that. I am not really asking you to respond. I 
think, as I understand it, the problem is not getting the 
reports done, but getting them cleared. Is that an accurate 
understanding?
    Mr. Tidwell. Senator, first of all, you know, I agree with 
you, and I apologize that we have not sent those reports out. 
It is information that we use. It is essential that we share 
that so that you can factor that into your decisionmaking. You 
have my assurance that in the future we will make sure that we 
have those up here.
    If it takes a little more time to get them through our 
clearance process, we are going to do that to make sure you 
have that. I am hoping that we will have them up here this 
week.
    The Chairman. That will be very helpful.
    Ms. Thorsen, did you have any comments?
    Ms. Thorsen. Senator, yes. The Department of the Interior 
did submit a report dated April 27 to the Hill. So, we will get 
you a copy of that----
    The Chairman. OK.
    Ms. Thorsen [continuing]. So you have that. Then our May 
report is in process, so we are starting the process, and we 
will be sure to get it here on time.
    The Chairman. OK. Thank you very much.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, I am sure that you read the article that was in the 
Washington Post on, I guess, it was Sunday. I was traveling, so 
I read all of my newspapers last night. But this was the one 
that is entitled, ``The Firefighting Planes Have Been Perhaps 
on the Job Too Long.'' You have said a couple times here this 
morning that you believe that the resources are adequate, that 
what we have, whether it is equipment, or Senator Heller's son 
and others that are out fighting, or the air assets, that they 
are adequate.
    The article makes a couple of statements here that I just 
want to ask you about. Large tanker planes leased by the agency 
that have been flying on average about 50 years are rapidly 
becoming unsafe to deploy. Then a statement about the 2009 
report, and the Forest Service's replacement plan for aerial 
firefighter resources. According to the report, the remaining 
leased air tankers should fly for only one more year. After 
2012, they will be too expensive to maintain or no longer air 
worthy, the Forest Service concluded.
    So, the first question is whether or not you agree with 
that statement. Second question is, next year is next year, and 
we are working on the budget now, and we all know how long it 
takes to get anything around here. Are we going to be in a 
situation where next year we will not have air assets that you 
would consider adequate and/or safe? If that is the case, I 
would hope that we would not put the lives and the safety of 
those who are fighting our fires at risk. What is our plan? I 
know you said you are going to be getting this plan to us by 
the end of this summer, but are we not cutting this kind of 
close in terms of our preparedness?
    Mr. Tidwell. Senator, we have been continuing to work with 
our contractors to actually look at newer aircraft. They have 
been pursuing that to be able to bring on some newer aircraft. 
At the same time, we do hold them to very strict safety 
standards on the maintenance of these planes to ensure that 
they are not being flown unless they are safe, and that if--
when I say we have adequate resources, if for some reason some 
planes needed to be grounded for maintenance or whatever, we 
have the ability to either bring on additional type one 
helicopters to replace those assets, or we can also make a 
request to our mass units from the National Guard to be able to 
offset that for a period of time.
    We know that we need to lay out the strategy that will 
ensure that we have large air tankers as part of our resources 
into the future. That is what our strategy is going to be. It 
will have an interim approach so that we continue to work with, 
you know, our existing contractors or other contractors to be 
able to bring on aircraft that will continue to provide a 
period of time so that we do not have to, you know, wait 5 or 6 
or 10 years to actually what we want in place for the 
foreseeable future.
    So, it will be a combination of an interim strategy with a 
long-term strategy, and I remain confident that today that we 
have the adequate resources. But it is time for us to move 
forward, and that is why we will bringing that report 
recommendation to Congress, you know, later this summer so that 
we can begin the discussion about what is the best way to move 
forward with our recommendation.
    Senator Murkowski. When we had the discussion several 
months ago at Interior Approps, you assured me at that time 
that there was going to be a variety of aircraft types and 
sizes within the firefighting force. I take that to mean that 
it will be different brands. It will be including the size of 
heavy retardant aircraft, that this will be part of that mix. 
Is that a correct assumption?
    Mr. Tidwell. Senator, we need to look at every option that 
we have available. That is to look at a full range of the 
aircraft that are currently available and also some that are 
being currently developed. So, our strategy is going to look at 
using every option that is available for us to be able to 
continue to always have the resource that the large air tankers 
provide.
    Senator Murkowski. Good. It is good to hear that because 
since that hearing, there has been some feedback from some 
within the aircraft manufacturing companies and the companies 
that contract with the Forest Service. They have suggested that 
perhaps the heavy retardant aircraft would not be employed. But 
what I am hearing you say is that you are going to be looking 
to all options, including the heavy aircraft, the heavy 
retardant aircraft, and that will be included as part of the 
consideration, part of the mix.
    Mr. Tidwell. Yes.
    Senator Murkowski. OK. Let me ask then one final question. 
For a good part of the last decade, the Forest Service has 
refused to allow either the DC-10 or the Evergreen 747 to fly 
on the fires on national forest lands, but I see that this 
week, the Forest Service used the DC-10 in the Wallow fire. Has 
something changed? Are we going to be seeing more of these? 
Will we see them up in Alaska? What is the situation with the 
DC-10?
    Mr. Tidwell. We have had both the DC-10 and, in the past, 
the 747 under a call when needed contract. We have used them in 
the past. We did use the DC-10 on the Wallow fire. One of the 
things that we have asked the team to do as far as their after 
action review is to look at the effectiveness of very large 
aircraft, large air tanker, to help us learn, you know, 
especially in these type of fuel types, you know, the 
effectiveness of the drops that it made.
    So, it is part of the mix of tools.
    Senator Murkowski. OK.
    Mr. Tidwell [continuing]. We are going to continue to have 
it available. When our incident commanders need that tool, they 
are going to order it.
    Senator Murkowski. As you look to rolling out this report 
here at the end of this season, will discussion about how the 
DC-10 performed be included as part of that review?
    Mr. Tidwell. We will be looking at what we call these very 
large air tankers, the DC-10 and the 747 to look at their 
effectiveness and, not only in the drops that they made, but 
also what type of terrain that they can be effective in.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you.
    First of all, let me just say that I bring a great deal of 
humility to this subject. I am new to this committee this 
Congress, and, you know, on forest management, I certainly 
would yield to my friend who has a degree in forest management. 
I certainly do not.
    But let me ask you about the scientists that you cited 
referring to the effect of climate change in the Forest 
Service. They have degrees, right?
    Mr. Tidwell. Yes.
    Senator Franken. Yes. Those degrees are like in what? The 
ones that you rely on for this information about the effect of 
climate change on forest fires? What would their degrees be in?
    Mr. Tidwell. They are in a variety of disciplines, 
primarily a focus on vegetation and understanding the effects 
of climate change on vegetation. We have the largest research 
and development operation--organization in the world when it 
comes to understanding natural resources. Where our focus is on 
understanding the effects of climate change, we rely on other 
entities to study the weather. So, our scientists are mostly 
focused on understanding these effects. That is what we have 
actually been doing research for now close to 30 years about 
the effects.
    What our scientists have seen, how the vegetation have 
changed, you know, across the country and that we see where 
tree lines are, you know, moving higher up on to the slopes 
from what they were 20, 30, 40 years ago. The change in the 
vegetation, the change in the frequency of the disturbances, 
that is what we are focused on. That is what we are focused on, 
understanding those changes so that we can adapt our management 
to deal with these changes.
    Senator Franken. OK. So, in adapting the management, it is 
probably to say that Senator Risch might be right that we have 
made some mistakes in the past in terms of how we approach 
sustainable forests. Is that fair to say?
    Mr. Tidwell. I agree with Senator Risch that we need to be, 
you know, doing more work than we have done in the past. His 
point that he made about in the past there has been times that 
we have not been able to implement our projects because of 
lawsuits, that is true.
    But what has changed today is that there is more and more 
agreement across the country, especially in our collaborative 
efforts where people have come together and understand the type 
of work that needs to be done. So, we are in a much better 
position today than we have been, I think, for a couple of 
decades to actually be able to move forward and to be able to 
implement the work on the ground that will make a difference.
    Senator Franken. In northeast Minnesota, we have a big 
forestry industry. I have seen exactly what you are saying at 
work. I have seen private and, you know, we have a paper 
company there, Blandin, which I have gone to, and they do 
sustainable forestry with the forests that they own. Part of 
that is actually harvesting certain fuel that does become fuel, 
and it becomes--in addition to becoming paper, it becomes fuel 
for, again, the kind of, you know, used as biomass.
    Just following up on the question I asked before, do you 
think that across Federal, State, and private forests, we are 
adequately gathering and making use of this debris from the 
forest floor and other--not just debris on the forest floor, 
but of thinning of trees that--to use for this purpose?
    Mr. Tidwell. Senator, we are starting to be able to make 
use of this material, to put it to some beneficial use. But 
this is an area where we need considerable, I think, investment 
and additional facilities so that we can make more use of this 
material.
    In the future, there is going to be a need to, you know, 
treat more acres. There is going to be a need to remove more of 
this material. So, the more than we can, you know, work with 
communities, work with private industry to be able to find ways 
that they can make the investment in these facilities, it will 
not only reduce the cost of removing the material from the 
national forests, but it will also put it to beneficial use and 
be able to create renewable energy.
    Senator Franken. Thank you. Thank you very much.
    Mr. Chairman.
    The Chairman. Senator Udall just arrived and has not had a 
chance to ask any questions. Senator Risch, is it OK if we go 
ahead and have Senator Udall ask his questions and then call on 
you? Is that acceptable?
    Senator Risch. I would be happy to yield.
    The Chairman. Senator Udall, go right ahead.
    Senator Udall. Is the Senator from Idaho certain of that? 
We have a working relationship, and I do not want to do 
anything to change that.
    Thank you----
    Senator Risch. You missed our discussion with Senator 
Franken about climate change, and it would have dovetailed 
nicely with our legislation on bark beetle infestations that we 
have in our two states.
    Senator Udall. I look forward to a complete report on the 
interchange between you and Senator Franken.
    Senator Risch. I do not think the problem--I do not think 
he--there was a disagreement in the problem. It was the cause 
of the problem that caused us to have a----
    Senator Udall. Senator Franken and I will continue to 
endeavor to convince you of our point of view, Senator Risch.
    Senator Risch. Please do. Please.
    Senator Udall. Chief, Secretary, thank you for being here. 
I was in a markup with an Armed Services subcommittee. This is 
the week in which we mark up the entire Armed Services 
authorization bill, so there is a lot going on. Thank you for 
your patience.
    I know you visited with Senator Murkowski and Senator Wyden 
about aviation services. I think you know that I have been 
discussing this and drawing attention to it for a number of 
years, almost for a decade. I hope there is a solution in front 
of us.
    But let me turn to a specific Colorado event that relates 
to aviation and aviation services. The Fourmile Canyon fire 
last year in Colorado was the most devastating in our history. 
A vast majority of that fire was not on Federal land, but 
Federal resources were brought in to fight it. There were, 
however, reports that it took more than 24 hours for the first 
aircraft to respond to the fire, and it came from across the 
State, while local resources were passed over.
    I have asked you in the State to look into the issue and a 
variety of other concerns about the fire. We are doing a 
postmortem report, which I think will be very valuable as the 
ones in the past have been. But I think the question again 
rises, whether the Federal Government is using its aging 
resources in the most efficient way. Would you be willing to 
comment on this, and then Ms. Thorsen as well in turn, I would 
ask you to comment.
    Mr. Tidwell. Senator, with that fire, you know, it is my 
understanding, which is the case usually when we lose a fire 
during an initial attack, we had strong winds. I know it is 
difficult, especially for our communities in the public to 
understand that in high winds, the air tankers do not fly. They 
are not effective, and it is not safe. So, it is has been my 
experience that, and I think in this case the fire was a State 
fire working with the county there. They ordered the resources 
that they need, and it has my experience that our instant 
commanders, whether it is from the State or from Forest Service 
or any other agency, if they need a large air tanker, they are 
going to put an order in if they feel it is going to be 
effective. So, if the air tankers did not get there until the 
next day, you know, unless I have other information, I am going 
to assume that it was because of the weather they would not 
have been effective, or because of the terrain.
    But we welcome the review. It is one of the things that we 
want to do, an after action review on all of our large fires so 
that we can continue to learn what we need to do. If there is a 
question about the resources that were not available, that is 
something we definitely need to look into.
    But it has been my experience that our instant commanders 
order the resources that they need when they can be effective. 
But when we get the winds that we have normally around fires 
like you had experience there is that we are not able to fly. 
They are not effective. They are not safe. Large helicopters 
can fly in a little higher winds, but they, too--you know, over 
like 35, 40 miles an hour at the very most. We cannot fly 
aircraft.
    Senator Udall. I would just note that the issue--maybe I 
was not as clear as I might have been--was also in regards to 
helicopters and helicopter availability.
    Ms. Thorsen, if you could respond briefly, if I could ask 
you so I could get a second question in during my 5 minutes, I 
would appreciate it.
    Ms. Thorsen. Sure. I will keep it very short, Senator. I 
would agree with the chief, look forward to the review. I do 
not have any specifics on what happened on that fire, but we 
will certainly take what will come out of the review and ensure 
that we have got the processes in places. The ordering is very 
consistent and our folks do it all the time, so, as the chief 
said, I am sure it was the idiosyncracies of the fire that kept 
them from doing that.
    Senator Udall. Thank you.
    Ms. Thorsen. We will follow up.
    Senator Udall. I very much look forward to that.
    Let me turn to mitigation. Of course, this has been a part 
of the conversation today. I know Senator Risch, Senator 
Bingaman, Senator Murkowski, myself, and everybody else who is 
here this morning have had the same look on our face that 
Senator Kyl had, which is a combination of horror and regret 
and commitment to doing more.
    What are you doing about mitigation? What more can we do? I 
just met with a little company in Silver Plum, New Earth 
Pellets. They have developed a technique where they do not 
bring the trees to them, they take the drying machine to the 
tree and they turn the biomass into wood pellets. It is the 
most efficient way, I think, to turn that material into 
something useful. But if you would, in my remaining time, talk 
about mitigation and your plans.
    Mr. Tidwell. Senator, what you just mentioned is one of the 
examples that we need to work with private industry to, you 
know, find ways to increase our integrated wood products 
industry to make use of all of this material, whether it is the 
saw logs or the smaller diameter, you know, material.
    The other key part of that is to be able to treat large 
enough acres where it really makes a difference. Then that has 
been our focus by using the Collaborative Landscape Forest 
Restoration Act projects that allow us to look at much larger 
landscapes, 50,000 acres. The work we are doing in Arizona with 
one of the projects there, we are pursuing to do one 
environmental impact statement to address 750,000 acres. This 
is what we need to do to be able to move forward, to be able to 
treat much larger areas.
    It will also allow investment to occur. We want to continue 
to use our long-term stewardship contracts so that someone can 
realize that there is going to be a certain amount of work that 
is going to be done every year for like the next 10 years so 
that they can go ahead and make the investment in the 
equipment, like you just mentioned. That is a key tool that we 
need to continue to, you know, pursue.
    We are working with CEQ to be able to pursue some pilot 
approaches to taking on this large-scale environmental analysis 
so that we have their support and their assistance.
    These are some of the things that we are currently working 
on that I think will make a difference.
    Senator Udall. Thank you for that.
    Mr. Chairman, I think two ideas that I have certainly heard 
would be to make the stewardship contract timeframe longer, 
something on the order of perhaps 15 or 20 years even. Now we 
have got to keep faith with the environmental laws.
    Second, there is a very interesting idea circulating, and 
this is tied to the way OMB and CBO work, is that you would 
actually value the trees at zero dollars, and you would have 
more potential of getting the private sector involved. To me, 
it is counterintuitive, but I am really intrigued with that 
idea, and I would like to work with the committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Risch.
    Senator Risch. First of all, I agree with you, Senator 
Udall. Those are things that we really ought to have a look at.
    The idea of a zero value tree I do not think is totally off 
the wall. Tom, correct me if I am wrong, but the Forest Service 
has done that. When we were in the road building business, 
frequently the cost of the roads exceeded the value of the 
timber or at least were a push. Am I right on that?
    Mr. Tidwell. Yes. Senator, we have currently readjusted our 
prices so that the average price of the material being removed 
is about where it was back in the early 1970s. So, it is 
something we are constantly focused on.
    Our focus is to get the work accomplished. We do need to, 
when there is a value of the materials being removed, we need 
to ensure that the public is receiving the compensation for 
that. But that is another one of the key benefits of the 
stewardship contracting approach. Not only does it ensure that 
we take a collaborative approach to bring people together so 
that there is agreement on the type of work that needs to be 
done, but if there are any revenues that are produced from the 
trees, the biomasses removed, that can actually be put back 
into that project to be able to do more work, to be able to do 
more thinning, more watershed improvement, more fisheries work, 
whatever the project is designed to do.
    Senator Risch. I appreciate that. Tom, were you--you know, 
I appreciate your review of the fire in Arizona right now. Were 
you on the Biscuit fire over in Oregon, or did you happen to 
see the Biscuit fire over in Oregon? When was that, four years 
ago, five?
    Mr. Tidwell. No, it was longer than that, and I was not on 
that fire.
    Senator Risch. That was another one that was a real 
catastrophe. It got a lot of old growth timber. It got spotted 
owls. It got everything. I had really hoped that--and there was 
a lot of talk about it at the time that, oh, gosh, we learned a 
lot of lessons, and we are going to do this different, we are 
going to do that different. It does not seem--and that thing 
was such a catastrophe that I really thought that it would 
promote some changes, particularly in fuel loading and doing 
the kind of management that you do to put strips in or what 
have you in order to stop the future fires.
    But it does not seem like it resulted in anything. It came 
off of the front page, went to the second page, and then 
dropped out of the paper. We never heard about it again.
    Any thoughts on that?
    Mr. Tidwell. Senator, I do think, you know, these large 
fires have helped to inform and encourage, you know, our 
communities, you know, people throughout this country to learn 
about the importance of forestry and the importance of 
restoring the resiliency of these systems.
    I think the support that we have through our collaborative 
efforts today, I think they are a product of some of these that 
have happened in the past. I think, you know, the leadership 
that you provided there in Idaho to bring that group of folks 
together to be able to deal with the Idaho roadless rule. I 
think that has all helped.
    So, I am going to stay optimistic that these things that 
have occurred in the past, we have learned from those. It has 
allowed us to be able to today to be able to have more 
agreement and be able to implement more work on the ground 
today than we have in the past. I think that three million 
acres that we treated last year, I think that is the byproduct 
from some of these events, some of these things that we have 
learned over time.
    Senator Risch. Thank you. That is an interesting 
perspective, and I guess I have to agree with you to a degree. 
That Biscuit fire destroyed, I think it was like 500,000 acres 
or something like that. It actually did not get controlled 
until the end of the December because of the snow, you know, 
obviously. It was kind of like the big burn really.
    I tend to agree with you. I think that over time people are 
becoming more sensitive, as you know, in the roadless rule that 
you and I worked on together, and are still defending hopefully 
through just one more step.
    I did see people more willing to talk about the urban 
interface area whereas before it was, you know, not one tree. 
In some of these areas that we would have had real trouble 
with, they agreed to removal of material in the urban interface 
area, which in Idaho is absolutely critical as you know because 
of a lot of small towns we have out there.
    So, I appreciate your thoughts on that. That is an 
interesting point of view.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murkowski, did you have additional questions?
    Senator Murkowski. No, thank you, Mr. Chairman.
    The Chairman. Senator Udall, did you have additional 
questions?
    Senator Udall. Mr. Chairman, if I could, and you cut me off 
if necessary.
    We have been talking about saw mills in Colorado. I do not 
know the situation in Idaho or New Mexico, but our saw mills, 
the few that we have are in real trouble. The significant 
reason behind that is that legacy timber sales are no longer 
financially viable and become a liability. I know Under 
secretary Sherman has been working on this. But what can we do 
to really resolve this issue? There has been a lot of talk, a 
lot of concern expressed. But, boy, the clock is running.
    Mr. Tidwell. Senator, with the mill you are referring to, I 
think it is the case in many parts of the country is that to be 
able to maintain this integrated wood products industry, there 
needs to be, you know, some certainty that the wood is going to 
be available. We definitely have the need on the landscape.
    I want to go back to your earlier comment about, you know, 
stewardship contracting. Those long-term contracts have proven 
to be successful. The approach and the process that we use 
seems to be, one, it helps people to come together and reach 
agreement on the type of work. So, we are seeing fewer appeals, 
fewer lawsuits with those type of projects.
    It is essential that, I think, we have that authority 
reauthorized. It is due to expire here in another 2 years, and 
it is just essential that as we move forward, that we continue 
to have that authority. I think that is going to continue to be 
one of the tools that we need to use and to be able to have 
that.
    Senator Udall. I want to follow up further with you on 
that, if I can. But not now, but, I think this is really an 
opportunity we could miss. I think it will be very hard to 
rebuild the saw mill sector.
    Power lines. A big deal in Colorado. I do not know, again, 
about other western States, but we have one of the most 
populous western States, and we have a lot of electricity 
corridors running through our mountains.
    Utilities have a point of view. You have a point of view. 
The projections are, and this is hard to believe, but more and 
more it has been confirmed, 100,000 trees a day coming down. 
That is mind boggling.
    But we have got to get these negotiations concluded so that 
we can do the work to ensure these power line corridors are not 
going to either be subject to a fire because a tree falls on 
the line or because you have a problem with a line that then 
triggers the fire, and then those power lines are brought out 
of service. I know that is a big concern in Arizona.
    So, I would just urge you to do everything possible to work 
out an agreement on the ground. A lot of this is tied to 
liability concerns, and I know the lawyers are important. I 
know Senator Risch is a lawyer.
    Senator Risch. Hear, hear.
    Senator Udall. I know Senator is a lawyer. I know Senator 
Bingaman is a lawyer. I do not want to be a lawyer.
    But let us see if we can also bring some common sense to 
bear here and get a deal so we can move forward--and a lot of 
these power lines in Colorado are in the mountains. You cannot 
go in in the winter time and do that work. That is a plea to 
you, and any comment you would like to share with us, I would 
like to hear it.
    Mr. Tidwell. Senator, thank you for the letter you sent us. 
We are working on options, and we will have a response to you. 
I do think we have a couple of different options to be able to 
move forward to address that concern, and also at the same 
time, you know, satisfy the liability issue, too.
    Senator Udall. I have given the same speech to the 
utilities, by the way, so I am not just picking on you.
    Mr. Tidwell. They want to work with us, and I think it is 
just another opportunity that, by working together, not only 
can we ensure that, you know, their lines are protected that we 
all rely on, but at the same time, to be able to also get some 
additional restoration work done in areas that are adjacent to 
these lines.
    Senator Udall. Thank you for that.
    Thanks, Mr. Chairman.
    The Chairman. Senator Risch, did you have additional 
questions?
    Senator Risch. No, thank you. Thank you, Mr. Chairman.
    The Chairman. We thank you both very much. You have been 
very generous with your time. It has been useful testimony. 
Thank you, and we wish you good luck the remainder of this fire 
season.
    Thank you.
    Mr. Tidwell. Thank you.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Response of Tom Tidwell to Question From Senator Bingaman
    Question 1. A reference was made at the hearing to a pledge that 
every Forest Supervisor signed, reportedly to fully implement to 20 
million acres the Healthy Forest Restoration Act. Can you describe for 
the Committee the pledge, its contents and the circumstances under 
which it was signed?
    Answer. At a regular meeting with Forest Supervisors in early 2004, 
then-Chief Dale Bosworth was reviewing expectations for the coming 
year's hazardous fuels reduction efforts. As an impromptu show of 
support for the Chief and commitment to the agency's priorities, the 
meeting participants (the Supervisors from every National Forest) 
volunteered to a handwritten pledge to do all they can, within their 
authority, to meet the National Fuels target.
    The `pledge' made no reference to the Healthy Forests Restoration 
Act. As for acreages, no explicit acreage was mentioned, although one 
might infer from the President's FY2004 budget that the National Fuels 
target mentioned equates to 600,000 acres of hazardous fuels reduction 
treatments outside the wildland-urban interface, and 1,000,000 acres of 
hazardous fuels reduction treatments within the wildland-urban 
interface.
        Responses of Tom Tidwell to Questions From Senator Wyden
                     hazardous fuels treated acres
    Question 1. The Forest Service stated in the FY2012 budget 
justification that ``naturally ignited fires that benefit the ecosystem 
will continue to be an important part of the total Hazardous Fuels 
program.'' Last year the Forest Service counted 150,000 acres of 
naturally ignited fires as hazardous fuels treated acres. This means 
that 57 percent of the acres that the USFS considered as treated for 
hazardous fuels were naturally ignited fires and were not typically 
thinned beforehand. Thinning forests and reintroducing fire is an 
important part of creating resilient forests. In 2010, the Pacific 
Northwest Research Station published a study of the 2006 Tripod Complex 
fires, demonstrating that an effective strategy to reduce future fire 
severity is to apply fuel treatments consisting of thinning forests 
followed by prescribed fire. The study demonstrated that in low 
elevation dry conifer forests, like the forests found in Oregon, 57 
percent of trees that were previously thinned and burned with 
prescribed fire survived after a large wildfire. Whereas only 19 
percent of trees that were in thin-only units survived the wildfire. I 
believe that it is important for the agency to mechanically reduce 
hazardous fuels, conduct prescribed fire treatments, and utilize forest 
byproducts to create jobs and support local mills. Chief Tidwell, 
please provide me details on how the agency will still make it a 
priority to apply fuel treatments to our forests that mechanically 
reduce fuels followed by prescribed fire treatments as opposed to 
simply relying on naturally ignited fires for the majority of acres 
considered treated.
    Answer. About 160,000 acres of hazardous fuels were treated by 
wildfire in FY-2010. This represents less than 6 percent of the total 
National Forest System Lands treated for hazardous fuels that year. In 
contrast, about 1,170,000 acres of hazardous fuels were treated with 
mechanical means. About 75 percent of those acres included removal and 
utilization of the treatment by-products. Many of those acres will also 
be treated by prescribed fire in FY-2011.
    Application of fuel treatments by mechanical means followed by 
prescribed fire treatments is an effective procedure and it is one of 
the most common methods that the Forest Service uses to reduce 
hazardous fuels. However, it is only one of the tools in our tool box. 
Other tools include prescribed fire as a single treatment and various 
mechanical manipulations as single treatments.
    Using naturally ignited wildfires to accomplish fuel treatment 
objectives is an opportunistic scenario. We cannot chose the time or 
place of a naturally ignited wildfire. But occasionally lighting 
strikes in the right place, at the right time, and under the right 
conditions and we are able to accomplish resource objectives. Wildfire 
management decisions are made by on-the-ground fire managers in real-
time, following carefully pre-designated guidelines and land and 
resource management plans. It is important that we provide fire 
managers the best resources and a wide range of options so that they 
may safely and effectively manage the wildfire.
              appraisal points for timber sale set asides
    Question 2. When the Forest Service sets the starting price for a 
timber sale minimum bid it ``appraises'' the sale price based on the 
transportation cost to haul logs to the nearest mill. When a timber 
sale is set aside for small business, the Forest Service still applies 
this same rule. Yet whenever a sale is set aside for small business, at 
least 70 percent of the logs by volume must be delivered to a small 
business mill, wherever one is. These logs are not allowed to be 
delivered to a large business mill, even if a large business mill is 
closer to the sale location. The 70 percent rule is a requirement of 
the Small Business Administration regulations in 13 CFR 121.507(a)(3). 
The 70 percent requirement, combined with the Forest Service ``nearest 
mill'' appraisal policy, puts small business timber purchasers in a 
bind. The small business timber purchasers do not get a break on the 
sale appraisal for having these extra transportation costs. I would 
like to know if the Forest Service can give small business purchasers 
relief from high transportation costs on sales set aside for small 
business, by adopting the nearest small business mill as the 
``appraisal point.'' Can the Forest Service do this within its 
administrative authority? Or does this need legislation to fix the 
problem?
    Answer. As noted the 30/70 rule is a SBA regulation that applies to 
small businesses. It is designed to help small business sawmills and is 
specifically for saw logs. It also applies to small business non-
manufacturers (generally independent loggers) who purchase timber sales 
and then dispose of the logs. Appraisal points are selected to provide 
an estimate of fair market value for all of industry. Any changes in 
timber sales policies that affect small businesses are to be published 
in the Federal Register for public comments in accordance with 
Congressional direction. Presently, the Forest Service is analyzing the 
different small business areas around the country to determine the 
extent of the situation. The Forest Service intends to publish a 
proposed policy in the Federal Register late this year that will 
consider changes to the appraisal point.
        Responses of Tom Tidwell to Questions From Senator Udall
    Question 1. Colorado's last large sawmill--Intermountain Resources 
in Montrose, Colorado--is in severe financial trouble and could close 
in the immediate future. Losing this mill would be a heavy blow to our 
forest products industry and our efforts to combat the bark beetle 
epidemic and implement fuels treatments across the state. Without 
Intermountain mill in Montrose as a processing location, the distance 
to the next closest mill with capacity to process any meaningful 
volumes of beetle-kill timber is nearly 800 miles away in Montana.
    While there are a number of reasons that the mills are failing, one 
significant reason is that they hold legacy U.S. Forest Service (USFS) 
timber sales that are no longer financially viable and have become a 
financial liability. The good news is that the USFS can play a vital 
role in helping this mill survive. In October 2010, Undersecretary 
Sherman visited Montrose and committed the USFS to exploring every 
option to help save the critical timber industry. Unfortunately, since 
that time very little has been done:
    I understand that the USFS offered contract changes under the 
Market Related Contract Term Adjustment (MRCTA), but that only two of 
51 contracts qualified because most of the legacy timber sales are 
classified ``urgent removal,'' and thus do not qualify under MRCTA 
(please note that almost all of the offering portfolio in Colorado in 
recent years has been classified as ``urgent removal'' because sales 
were targeted to beetle-kill and Wildland Urban Interface (WUI) areas).

          a. Is that accurate? Beyond these contract changes, what else 
        is the Forest Service doing to help resolve this issue?

    Answer. On August 2, 2011, Chief Tidwell signed a Decision Memo 
regarding high priced sales in Region 2 that were sold prior to July 
2008 that will allow the Forest Service and a timber sale purchaser in 
Region 2 to agree to mutually cancel a timber sale. Prior to this date 
the Forest Service had allowed all the relief that was qualified under 
the timber sale contract.
    Question 2. Regarding the bark beetle epidemic, I understand that 
the Forest Service is developing a Western Bark Beetle Strategy. Can 
you tell me about this strategy? When will it be completed?
    Answer. The Western Bark Beetle Strategy identifies how the Forest 
Service is responding to and will respond to the western bark beetle 
epidemic over the next five years. The extent of the epidemic requires 
prioritization of treatments, first providing for human safety in areas 
threatened by standing dead hazard trees, and second, addressing dead 
and down trees that create hazardous fuels conditions adjacent to high 
value areas. After the priority of safety, forested areas with severe 
mortality will be reforested with the appropriate species (Recovery). 
Forests will also be thinned to reduce the number of trees per acre and 
create more diverse stand structures to minimize extensive epidemic 
bark beetle areas (Resiliency). This is a modest strategy that reflects 
current budget realities, but focuses our resources in the most 
important places where we can make a big difference to the safety of 
the American public. This strategy covers Fiscal Year (FY) 2011 through 
2016. The Strategy is completed and going through clearance.
      Responses of Tom Tidwell to Questions From Senator Murkowski
    Question 1. Please have your researchers develop an estimate of 
what the total cost of the fires in 2002 and 2010 were.
    Answer. The impacts of wildland fires on local, regional and 
national economic well being are very complex and vary greatly 
depending on the characteristics of the event (fire extent, intensity, 
duration, proximity to human development, community resource 
dependency, ecological conditions and many others).
    The Western Forestry Leadership Council recently released a report 
summarizing the range of economic costs identified within the 
literature for a small number of the larger wildfire events of the past 
decade (see ``The True Cost of Wildland Fire'', 2009). The fires 
considered within this summary report show total economic cost ranging 
from 2 to 30 times the total suppression costs. However, it should be 
recognized that each of the studies reviewed in this document required 
considerable resources to summarize the economic impacts of a single 
event and the study highlights the significant range of outcomes. Most 
of the fires evaluated in this report had significant suppression 
resources assigned and yet wildfire extent and economic losses were 
considerable.
    The application of the ``total cost'' evaluation process requires 
the acquisition of considerable event specific information from 
numerous data sources and substantial analyses which is impossible to 
complete for every fire in a given year due to the sheer volume of 
fires the agency manages. We do believe that an understanding of the 
total economic costs of these events is very relevant and improved 
information could yield improved policy. The agency will continue to 
support research to determine methods to evaluate total wildfire costs 
in a rapid and consistent method for large fires.
    A goal of wildfire management is to reduce the long term losses 
associated with wildland fires and the agency's adoption of risk 
management principles emphasizes the balancing of fiscal cost and risk 
to firefighters and public interests.
    Question 2. During an active Alaska fire season, approximately how 
much is expended to transport and house the fire crews from the lower 
48 to assist Alaska fire crews in suppressing fires?
    Answer. (Note to Reviewers: This was developed by DOI staff at NIFC 
in response to the same question, it should not be edited to ensure 
consistency).
    We have a transport jet on Federal contract for the express purpose 
of mobilizing crews when and where they are most needed across the 
nation. The total cost spent on moving crews to or from Alaska will 
vary per year depending on fire activity and need. However, for 2011, 
the federally contracted Boeing 737 can mobilize five 20-person crews, 
equaling 100 persons, from Boise to Alaska for approximately 
$26,000.00, or $260.00 per firefighter; or $520.00 round trip.
    The cost to transport, feed, and house the crews while in Alaska is 
the same per-person cost as Alaska Type 2 crews.
    Question 3. Would it cost more each year to transport the crews 
from the lower 48 back and forth to Alaska, or to invest in the 
training to increase the qualifications of the Native Crews?
    Answer. The U.S. Forest Service does not sponsor any Emergency Fire 
Fighting crews in Alaska and is consequently not well suited to address 
this question. However, the U.S. Department of Interior Bureau of Land 
Management, which includes the Alaska Fire Service, is preparing a 
response to it.
    Question 4. For the last decade Australia, France, Greece, Spain, 
Italy, Canada, the States of Alaska, California, Washington, and 
Minnesota have all used the Canadian Bombardier CL-415 amphibious 
water-scooping aircraft to drop water and foam on fires. The aircraft 
has proven to be quite successful. Yet, the Forest Service has 
steadfastly refused to even test these airplanes on federal fires.
    At the same time the agency has been tangled up in court over the 
use of slurry and stands to lose the ability to use the retardant if 
the Judge in Montana rules against its use.

          a. Can you explain to me why the Forest Service refuses to 
        use the water scooping fire fighting aircraft?

    Answer. The FS uses Scooper aircraft through its cooperator 
agencies when appropriate.

          b. Can you tell me what your agency's plans are if Judge 
        Malloy in Montana outlaws the use of slurry for wildland fire 
        fighting?

    Answer. We will comply with the court decision. If retardant could 
no longer be used, we would rely more on water dropping aircraft.

          c. Is Congress going to have to put legislative language in 
        an appropriations bill to require your agency to provide 
        alternatives to the Lockheed C-130 J?

    Answer. No. The Forest Service is evaluating all available options.

          d. If we agree that you recently indicated to me there will 
        be a variety of types and sizes of heavy retardant aircraft, 
        will you instruct the employees in your fire and aviation group 
        to reflect that commitment in their discussions with your heavy 
        retardant vendors and the air craft manufacturing companies?

    Answer. Yes.

          e. If we cannot agree on the premise of Question 4(d), will 
        you please inform the Secretary of Agriculture that he and I 
        need to have a discussion on the future expenditures on aerial 
        firefighting that your agency undertakes?

    Answer. The Forest Service agrees with the premise of Question 
4(d).

    Question 5. Contractors have indicated that if offered the ability 
to enter into long term contracts--such as ten years--they could 
facilitate financing of re-winged or even new aircraft for the aerial 
firefighting fleet.

          f. Does the U.S. Forest Service (USFS) have the authority to 
        enter into long-term contracts with providers of aerial 
        firefighting services? If so, please provide the statutory 
        citations for this authority.

    Answer. We have the authority for 5 years, but not for 10 years\1\.
---------------------------------------------------------------------------
    \1\ Section 205 of Public Law 78-425 (16 U.S.C. 579a)

          g. If the Forest Service does not have the authority to enter 
        into long-term contracts, would you welcome enactment of a 
---------------------------------------------------------------------------
        statute providing you with that authority?

    Answer. Yes. Longer term contracts may provide an incentive for 
contractors to purchase or upgrade their aircraft.

    Question 6. Section 8118 of the House FY 2011 Continuing 
Appropriations Act (H.R. 1) called for a report that studies the 
purchase by the federal government of up to 24 new C-130J aircraft to 
be operated by the Air National Guard-- effectively replacing the fleet 
of contractor-owned and contractor-operated aircraft now used as first 
responders to combat forest fires.

          h. How much do you anticipate it will cost the USFS to 
        acquire the 24 new C-130J aircraft called for in the study?

    Answer. The 2010 Act had similar language and Paul Stockton, 
Assistant Secretary of Defense on May 15, 2011, said that this mission 
was not viable. Therefore, the Forest Service has not prepared an 
estimate of the cost to acquire 24 new C-130J aircraft to be operated 
by the Air National Guard.

          i. I understand that contractors position their airtankers at 
        various locations throughout country during the fire season, 
        and that depending on the fire conditions, the fleet is 
        repositioned to provide effective coverage across the country. 
        If the Air National Guard owns and operates our country's 
        aerial firefighting aircraft, where will these aircraft be 
        positioned during the fire season?

    Answer. Not applicable per response above.

          j. If the aircraft are located at National Guard airbases, 
        how would you handle coverage of areas such as the state of 
        Alaska that are far from these airbases?

    Answer. Not applicable per response above.

          k. Flying firefighting missions is a highly specialized task, 
        which takes hours of training, and for which relatively few 
        pilots are sufficiently trained. How will the USFS handle the 
        training of Air National Guard pilots for such missions, and 
        what retention strategies will be implemented to assure that 
        these pilots continue to participate in firefighting missions 
        after they have receive this specialized training?

    Answer. Not applicable per response above.

          l. What will be the cost to the taxpayer of training and 
        retaining pilots for the mission of fighting forest fires?

    Answer. Not applicable per response above.

          m. What guarantee do we have that aircraft owned by the 
        National Guard for the purposes of combating forest fires will 
        not be diverted overseas for national security purposes?

    Answer. Not applicable per response above.

          n. Over the last ten years, how many drops of retardant on 
        actual fires have been executed by the Air National Guard? 
        Please do not include in this calculation any drops that were 
        delivered by the Air National Guard during training exercises.

    Answer. Between 2000 and 2009 the Air National Guard and Air Force 
Reserve flew 3635 sorties with a high of 851 in 2000 and a low of 0 in 
2009. The actual number of sorties flown depends on the intensity of 
the fire season and availability of other contracted firefighting 
support, since this program is used when other contracted support is 
not available.

                           Year Sorties Flown
------------------------------------------------------------------------

------------------------------------------------------------------------
2000                                      851
------------------------------------------------------------------------
2001                                      200
------------------------------------------------------------------------
2002                                      637
------------------------------------------------------------------------
2003                                      62
------------------------------------------------------------------------
2004                                      260
------------------------------------------------------------------------
2005                                      368
------------------------------------------------------------------------
2006                                      613
------------------------------------------------------------------------
2007                                      74
------------------------------------------------------------------------
2008                                      570
------------------------------------------------------------------------
2009                                      0
------------------------------------------------------------------------
2010                                      4
------------------------------------------------------------------------

          o. How many personnel will be dedicated by the Air National 
        Guard for the operation and maintenance of each of the aircraft 
        envisioned to be purchased for use in fighting forest fires?

    Answer. Not applicable per response above.
    Question 7. Does the Forest Service support replacing the current 
contractor-owned, contractor-operated fleet of heavy air tankers with 
new C-130Js to be purchased by the taxpayer and operated by the Air 
National Guard?
    Answer. Assistant Secretary of Defense Stockton stated this is not 
viable.
    Question 8. Before developing a position regarding the long term 
replacement of the current heavy air tanker fleet, will the Forest 
Service study, and provide this Subcommittee with an analysis of each 
of the following? (For each item listed below, please answer yes or 
no.)

          a. The cost of alternative aircraft, including Casa 235s, C-
        130Hs, re-winged P-3s, and other alternatives.

    Answer. Yes

          b. The effectiveness of various aircraft capable of use as 
        heavy tankers and respective tanking systems.

    Answer. Yes

          c. The relative costs of having the aircraft owned by the 
        government as opposed to financed and owned by the private 
        sector.

    Answer. Yes

          d. The relative costs and effectiveness of having the 
        aircraft operated by private companies as opposed to by the Air 
        National Guard.

    Answer. Assistant Secretary of Defense Stockton stated this is not 
viable

          e. The potential for aircraft owned and operated by the Air 
        National Guard being diverted for use for National Security 
        needs, and the consequences of such diversion.

    Answer. Assistant Secretary of Defense Stockton stated this is not 
viable

          f. The concept of pre-positioning heavy tankers in the 
        vicinity of high risk/highly populated areas such as Southern 
        California.

    Answer. Yes.

          g. The current systems in place for repositioning aircraft 
        and ordering their use for combating specific fires, and 
        whether such systems can be improved.

    Answer. Yes.
      Responses of Tom Tidwell to Questions From Senator Barrasso
    Question 1. At the public land subcommittee hearing held on May 
25th, both Under Secretary Harris Sherman and Deputy Director Marcilynn 
Burke supported good neighbor authority. In Colorado alone, Mr. Sherman 
testified the authority has been used successfully on 37 projects 
covering 3,900 acres. These projects focused on fuel reduction within 
the wild land-urban interface.

          a. Had my Good Neighbor Forestry Bill been signed into law 
        last year, as it was introduced, would it have aided the forest 
        service in dealing with the terrible forest fuels problems that 
        have been occurring? BLM?

          b. How many more acres might have been treated if Good 
        Neighbor authority was available to the Forest Service? BLM?

    Answer. The Good Neighbor Authority for use in Colorado was enacted 
in the 2000 Interior Appropriations Act and was extended most recently 
to September 30, 20013. The similar Good Neighbor authority for use in 
Utah was enacted in the Consolidated Appropriations Act for 2005 and 
was extended most recently to September 30, 2011. Both Good Neighbor 
Authorities authorize cooperative projects between USFS and the states 
of Utah and Colorado. Except as otherwise indicated, both Authorities 
include the following provisions with regard to projects being 
implemented under the umbrella of the Good Neighbor Authority:
    Any decision required to be made under NEPA may not be delegated to 
the State.

  <bullet> A cooperative agreement or contract to implement a project 
        may authorize the State Forester to serves as the agent for the 
        USFS.
  <bullet> In Colorado, projects on National Forest System lands may be 
        implemented when similar or complimentary treatments are being 
        implemented on adjacent State or private lands.

            a. The Good Neighbor Forestry Act (S. 1122) would have 
        provided the US Forest Service with another tool to address 
        hazardous fuels on National Forest System lands in states west 
        of the 100th meridian.
            b. The Forest Service has good relationships with State 
        Foresters. There are several tools at the agency's disposal, 
        such as State Fire Assistance grants and authority to spend 
        some hazardous fuels money to treat non-Federal land. 
        Additionally, since there is often a significant amount of time 
        needed to plan, coordinate, and document projects before they 
        can be implemented, I do not know how many additional acres 
        might have been treated.

    Question 2. There are now 3.6 million acres of mountain pine beetle 
infestation in Wyoming alone. Given the likelihood of high intensity 
fires associated with beetle kill, what policy or decision making 
changes does the Forest Service employ in high beetle kill areas when 
dealing with wildfire?
    Answer. The Forest Service has placed a high priority on treating 
the hazardous fuels in beetle kill areas, especially when also in the 
Wildland Urban Interface. The Rocky Mountain Region, which includes 
Colorado and Wyoming, has created a special task force to coordinate 
funding and activities between FS resource emphasis areas and 
administrative units to most effectively address the hazards posed by 
beetle killed trees.
    Question 3. The Forest Service has sought C-130 Fire Fighting 
Capabilities. In the ``Report on the Joint Use of Federal Forest Fire 
Fighting Assets/C-130 Fire Fighting Capabilities'' dated February 9, 
2011, the report states:

                  The Department of Defense believes that the mission 
                proposed in the explanatory statement is not viable. 
                DoD has critical concerns regarding the additional 
                manpower and financial resources that would be required 
                for the Air Force Reserve and Air National Guard to 
                accomplish this mission in other than a secondary role.

    Other options have proven effective at wild land fire suppression 
including the use of refurbished surplus military aircraft and the use 
of private sector capabilities.

          c. Given the DoD believes the use of C-130s is not viable, 
        what is being done to retrofit and extend the life of existing 
        P-3s? Answer--An extensive airworthiness oversight program is 
        in place to monitor the status of the aircraft. The Forest 
        Service has no plans to extend the life of the existing P-3s.
          d. What has the Forest Service done to find or encourage 
        replacement aircraft and service crews from the private sector?

    Answer. We are working with the commercial airtanker industry as 
part of our strategy to ensure availability of safe and cost efficient 
aerial firefighting aircraft.
    Responses to our Request for Information (RFI) for the 2012 season 
have been received. We are in the process of developing a Request for 
Proposals (RFP). Draft technical specifications for the RFP have been 
developed and are currently under review. The proposed contract format 
would be an exclusive Firm Fixed Price Multi-year contract not to 
exceed five years. The RFP will target newer technology aircraft.
    Question 4. In 2010, Richard Lasko, Forest Service Assistant 
Director for Fire and Aviation Management, Fuels and Fire Ecology 
wrote:

                  A Revision of the 2003 Interagency Strategy removes 
                the distinction between wild land fire use and 
                wildfire. This will enhance a fire manager's ability to 
                implement Federal Wild land Fire Management Policy by 
                allowing consideration of the full range of positive 
                and negative attributes of a fire''

     I appreciate every fire can be both beneficial and detrimental. 
However, with dry conditions in the Southwest, and beetle kill timber 
in many states including Wyoming, there are environmental and resource 
risks associated with allowing fires to burn.

          e. In Forests like the Medicine-Bow National Forest with its 
        high beetle kill, is it prudent to allow any wild land fire use 
        when in all likelihood they will be high intensity fires?
          f. If yes, how does the Forest Service make the 
        determination?

    Answer. Decisions to use naturally ignited wildfires to accomplish 
fuel treatment objectives are based on local conditions. Prior to local 
fire seasons, fire management teams collaborating with other Federal, 
State, and local agency partners determine where naturally ignited 
wildfires may provide resource benefits and whether they would meet 
desired future conditions as stated in forest plans.
    Wildfire management decisions are made by on-the-ground fire 
managers in real-time. Every effort is made to provide them the best 
resources and a wide range of options so that they may safely and 
effectively manage wildfires. If conditions are not right (e.g. too 
dry, too much wind, resources are committed elsewhere, too close to 
valued resources, etc.), field managers will not attempt to accomplish 
broader resource objectives. All fire managers understand that the 
standing priorities for managing wildfires are protection of human 
lives and property. U.S. Forest Service Interim Guidance For Wildfire 
Response (April 2011), issued to wildfire managers, stipulates the 
following:

          1. All wildfires will have a protection objective. 
        Incorporate the potential for threat to life and property in 
        initial and subsequent courses of action on every fire.
          2. A wildfire may be concurrently managed for more than one 
        objective.
          3. Unplanned natural ignitions may be managed to achieve Land 
        and Resource Management Plan objectives when risk is within 
        acceptable limits. Risk is elevated and uncertain on longer 
        duration incidents.
          4. Human caused fires and trespass fires will continue to be 
        suppressed safely and cost effectively and will not be managed 
        for resource benefits.
       Responses of Tom Tidwell to Questions From Senator Heller
    Question 1. Chief Tidwell, thank you for your testimony. As a new 
member of this committee I want you to know that this issue is very 
important to me from my state's perspective in fighting forest fires. 
One of the three contractors providing the Forest Service with heavy 
air tanker service is located in Minden, NV.
    I know Minden Air has been contracting with the Forest Service for 
many years and are using their experience, aviation background and own 
capital to develop a new platform based on the BAE-146 to help the 
Forest Service find a next generation platform for aerial firefighting 
needs. I hope that you will continue to work with them as they go 
through the process to certify this new aircraft and put a strong and 
viable option on the table for the Forest Service as it looks to the 
future of the heavy air tanker. Will you please keep me updated on your 
ongoing relationship with Minden Air and their role in future 
firefighting strategies?
    Answer. Yes.
    Question 2. As I mentioned earlier, the results of pre-treatment in 
the Lake Tahoe Basin provide an important return on the investment. 
What plans do the Forest Service have to insure that the Lake Tahoe 
Basin has the resources it needs to protect the people, structures and 
ecosystem through preventative treatments?
    Answer. The Lake Tahoe Basin Multi-Jurisdictional Fuel Reduction 
and Wildfire Prevention Strategy of 2007 Strategy identifies how the 
Forest Service in collaboration with other land agencies will reduce 
the probability of a catastrophic fire in the Basin the next 10 years. 
It was developed to comply with the White Pine County Conservation, 
Recreation, and Development Act of 2006 (Public Law 109-432 
[H.R.6111]). It comprehensively combines all existing plans that have 
been developed within the Basin, and provides a framework for 
participating agencies to identify priority areas and a strategy to 
work collaboratively on accomplishing those priorities. The plan 
recognizes that wildfire protection in the Basin requires three 
components:

  <bullet> Buildings and homes should be built of fire-resistant 
        materials and have effective defensible space;
  <bullet> Accumulations of hazardous vegetative fuels must be reduced 
        in the areas directly adjacent to communities; and
  <bullet> Accumulations of vegetative hazardous fuels surrounding the 
        Community Defensible Space should be reduced in the general 
        forest. Treatments include thinning, pruning, prescribed 
        burning, mastication and chipping.

    Implementation of this plan is predicted to cost from $206,000,000 
to $244,000,000 over 10 years. At the national level, the Forest 
Service uses a computer model to inform allocation of hazardous fuel 
funding to the regions. This model includes consideration of wildfire 
potential, resource values that are threatened by wildfire, program 
performance, and coordination with other programs. The Pacific 
Southwest Region, which includes the Lake Tahoe Basin, routinely gets 
the highest allocation of all the regions. The regions then distribute 
their allocation to the units (forests) using similar criteria.
    Question 3. The personal impacts of wildfire are a huge burden to 
my constituents. I have heard story after story of folks who have 
watched a fire burn on public lands, been prevented from putting the 
fire out, only to see it eventually destroy their property.
    As you know, if a private party starts a fire that spreads to 
public lands, they are held accountable. Whereas, if the federal 
government starts or fails to aggressively suppress a fire that 
destroys private property--there is vastly less accountability. In 
light of this, what are the trends in wildland use fires over the last 
5 years? And, what percentage of catastrophic wildfires were designated 
as wildland use fires instead of aggressively suppressed?
    Answer. The following table displays the acres of hazardous fuels 
treated by wildfire for each of the last five years:

------------------------------------------------------------------------
                                              Acres of hazardous fuels
                    Year                        treated by wildfire
------------------------------------------------------------------------
2010                                       164,200
------------------------------------------------------------------------
2009                                       309,900
------------------------------------------------------------------------
2008                                       221,800
------------------------------------------------------------------------
2007                                       290,228
------------------------------------------------------------------------
2006                                       172,100
------------------------------------------------------------------------

    From the figures in the table above, there is no discernable trend. 
The resulting trend may be flat or constant. For comparison, the 
following table shows the total number of acres burned by wildfires and 
the total number of acres burned by wildfires on National Forest System 
(NFS) lands.


---------------------------------------------------------------------------------------------------------------
                                                           Total Number of Acres     Number of Acres burned by
                          Year                              burned by wildfire         wildfire on NFS lands
----------------------------------------------------------------------------------------------------------------
2010                                                                   3,422,700                        319,700
----------------------------------------------------------------------------------------------------------------
2009                                                                   5,921,786                        715,700
----------------------------------------------------------------------------------------------------------------
2008                                                                   5,292,500                      1,234,500
----------------------------------------------------------------------------------------------------------------
2007                                                                   9,328,000                      2,835,600
----------------------------------------------------------------------------------------------------------------
2006                                                                   9,873,700                      1,896,100
----------------------------------------------------------------------------------------------------------------

    The Forest Service stopped designating wildfires as ``wildland use 
fires'' and stopped using the term ``Wildland fire use'' in 2009. In 
the previous years, in 2008 2.4 percent of all wildfires were declared 
wildland fire use, in 2007 that number was 2.3 percent, and in 2006 it 
was 2.5 percent.
    The current wildfire policy provides field managers the widest 
possible flexibility to manage wildfires safely, effectively, and to 
use available resources efficiently. It is only after the wildfire is 
out that the impacts are compared to the desired conditions described 
in the applicable forest plan. If the wildfire effectively treated the 
hazardous fuels, helped meet the desired condition, and met the other 
criteria related to beneficial impacts from wildfire then the results 
are recorded as hazardous fuels treated by wildfire.
                                 ______
                                 
      Responses of Kim Thorsen to Questions From Senator Murkowski
    Question 1. Please have your researchers develop an estimate of 
what the total cost of the fires in 2002 and 2010 were.
    Answer. The total cost of fires is a difficult question to answer, 
especially for large fires that significantly impact structural and 
natural resources. The impacts of wildland fires on local, regional and 
national economic well being are very complex and vary greatly 
depending on the characteristics of the event (fire extent, intensity, 
duration, proximity to human development, community resource 
dependency, ecological conditions and many others).
    The Western Forestry Leadership Council recently released a report 
summarizing the range of economic costs identified within the 
literature for a small number of the larger wildfire events of the past 
decade (see ``The True Cost of Wildland Fire'', 2009). The fires 
considered within this summary report show total economic cost ranging 
from 2 to 30 times the total suppression costs. However, it should be 
recognized that each of the studies reviewed in this document required 
considerable resources to summarize the economic impacts of a single 
event and the study highlights the significant range of outcomes. Most 
of the fires evaluated in this report had significant suppression 
resources assigned and yet wildfire extent and economic losses were 
considerable.
    The application of the ``total cost'' evaluation process requires 
the acquisition of considerable event specific information from 
numerous data sources and substantial analyses which is impossible to 
complete for every fire in a given year due to the sheer volume of 
fires the agency manages. We do believe that an understanding of the 
total economic costs of these events is very relevant and improved 
information could yield improved policy. The agency will continue to 
support research to determine methods to evaluate total wildfire costs 
in a rapid and consistent method for large fires.
    A goal of wildfire management is to reduce the long term losses 
associated with wildland fires and the agency's adoption of risk 
management principles emphasizes the balancing of fiscal cost and risk 
to firefighters and public interests.
    Question 2. During an active Alaska fire season, approximately how 
much is expended to transport and house the fire crews from the lower 
48 to assist Alaska fire crews in suppressing fires?
    Answer. The Department of the Interior spends approximately 
$180,000 to transport crews annually to support Alaska fires. The costs 
to feed and house these crews are consistent with the cost of Alaska 
crews and mostly reflect fire line meals and camp rate.
    Fire crews are transported to Alaska during an active fire season 
to fill crew orders that cannot be filled within Alaska. These orders 
are typically for specialty crews like Type 1 or Type 2 IA crews that 
can be broken down into smaller groups for initial attack. The number 
is dependent on the availability of local crews and incident 
commander's specific needs.
    The Alaska Fire Service transports, on an average, 16 crews per 
year to support fires in Alaska. The range is from 2 Type 1 crews in 
2008 to 39 Type I and Type 2 IA crews in 2004. We have a transport jet 
on federal contract for the express purpose of mobilizing crews when 
and where they are most needed across the nation. For 2011, the 
federally contracted Boeing 737 can mobilize five 20-person crews, 
equaling 100 persons, from Boise to Alaska for approximately 
$26,000.00, or $260.00 per firefighter; or $520.00 round-trip. The 
total cost spent on moving crews to or from Alaska will vary per year 
depending on fire activity and need. Based on the annual average of 16 
crews per year the cost would be approximately $180,000.
    The cost to feed, and house the crews while in Alaska is minimal 
because of fire assignments and is consistent with costs of mobilizing 
and supporting Alaska Native Crews. They are provided with fire line 
meals and camp out.
    Question 3. Would it cost more each year to transport the crews 
from the lower 48 back and forth to Alaska, or to invest in the 
training to increase the qualifications of the Native Crews?
    Answer. It would cost considerably more to invest in training and 
outfitting Type 1 crews in Alaska than simply using the national 
mobilization system to fill Alaska's crew needs. Three type 1 crews are 
currently trained and maintained in the State of Alaska, including two 
managed by the Alaska Fire Service and one managed by the Alaska 
Department of Forestry. On average, 13 Type I crews per year are 
transported from the lower 48 to support fires in Alaska. A type 1 crew 
costs approximately $500,000 per year to train and outfit. The cost to 
train and outfit 13 additional Type 1 crews in Alaska would be 
approximately $6.5 million. The cost of mobilizing 13 existing Type 1 
crews from the lower 48 would be approximately $156,000.
    The Department is very supportive of cost effective crew 
development and utilization. The Alaska Fire Service (AFS) has an 
established program in place that is designed to train village crews as 
the primary firefighting force in Alaska. The AFS manages an Emergency 
Firefighter (EFF) program that consists of 73 Type 2 crews in 49 
villages. This results in an average annual payroll of $8.3 million to 
local villages. Crews are managed under the Alaska Emergency 
Firefighter Type 2 Crew Management Guide, Revised March 2010 and 
available at http://fire.ak.blm.gov/logdisp/crews.php. The guide is 
produced by the EFF Crew Management Board which is a subgroup of the 
Alaska Wildland Fire Coordinating Group's Operations Committee.
    In recent years, an average of 35 Type 2 crews per year were sent 
from Alaska to lower 48 assignments, as well as utilizing them on 
multiple in state assignments. Village crews within Alaska are a 
powerful and useful firefighting tool, and the AFS works very 
diligently to keep them trained and available for use throughout Alaska 
and the Continental US.
    During periods of high fire activity, Incident Commanders can and 
do order agency ``hotshot'' crews to fill critical assignments or 
protect high value resources. Moving firefighting resources to areas of 
highest priority is a common business practice throughout the country, 
and one that we believe ultimately saves money for the agencies and 
taxpayers.
    The Alaska Fire Service is cognizant of the cost of-moving 
resources to the state, and works hard to use the practice only when 
necessary. The Alaska Fire Service is currently working with the State 
of Alaska, and Native Corporations within the Alaska Wildfire 
Coordinating Group (AWFCG), to provide greater opportunities for 
additional firefighter training. This additional training will be used 
to create a local pool of Type 2 IA crews that can supplement the 
traditional roster of Type 2 village crews. This will help to reduce 
the need to mobilize T2 IA crews from the lower 48.
    As noted, we have invested in expanding our training in Alaska in 
recent years to increase the qualifications of those crews.
    Question 4a. Over the last two decades, the Bureau of Land 
Management seems to have made the decision to focus its aerial fire 
fighting resources on the small single engine aircraft commonly called 
the SEATS aircraft.
    In making the decision to focus on the single-engine SEATS 
aircraft, the BLM opted not to use the heavy multi-engine aircraft the 
Forest Service has chosen; how did the Bureau of Land Management make 
its decision?
    Answer. The Bureau of Land Management, as well as the other bureaus 
within the Department of the Interior (DOI) with fire management 
responsibilities (Bureau of Indian Affairs, Fish and Wildlife Service, 
and National Park Service) and the Forest Service use Large Airtankers 
(LATS), Single Engine Airtankers (SEATS), water scoopers and 
helicopters to deliver water, water with foam or other water enhancers 
and water with retardant to extinguish fires or retard their growth. 
Fire Managers, regardless of agency, use the most appropriate aviation 
resource for the mission requirements. The perception that one agency 
prefers to use LATS and another SEATS is an unintended artifact of 
agreed to interagency business protocols for contracting efficiencies 
and does not reflect actual fire management operations.
    Factors that determine which aviation resources are utilized on a 
particular fire, regardless of agency responding, include: speed, 
range, capacity, suitability for the terrain, operating altitude and 
suitability for the mission. The diversity model allows DOI and Forest 
Service fire managers to apply the ``right tool to the job'' and all 
five federal agencies use all types of available aviation resources.

    --Large Airtankers (FATS) have the advantage of speed and capacity 
            to the target. Their range allows for rapid deployment over 
            long distances enabling them to reinforce operations across 
            geographic boundaries. They also deliver large amounts of 
            water/retardant in one mission, often in locations where 
            other options are unavailable.
    --Single Engine Airtankers (SEATs) have the advantage of mobility 
            and maneuverability. The infrastructure required to fuel 
            and load SEATs is relatively minimal in terms of size and 
            cost. This allows SEATs to operate close to the fire, 
            shortening turn-around times and thereby increasing 
            effectiveness. Due to their small size, SEATs are capable 
            of great accuracy in rough terrain. SEATs also have the 
            advantage of being ``purpose-designed'' to accurately 
            dispense payload in the low altitude flight regime 
            encountered during the wildland firefighting mission.
    --Water scoopers have the advantage of speed and capacity, when 
            there are appropriate water sources close to the fire site.
    --Helicopters have the advantage of large and sustained capacity 
            for personnel and cargo movement. Helicopter delivery of 
            firefighters, either helitack or rappellers, and supplies 
            has the advantage of speed and accuracy. Helicopters have 
            the versatility for multiple missions including personnel 
            and cargo movement, command and control and aerial ignition 
            operations. And, helicopter delivery of water/retardant has 
            the advantage of accuracy, speed, capacity, and increased 
            water/retardant drop frequency if water resources are close 
            to the fire site.

    The aviation resources available to support the federal agencies 
for wildfire management are a mix of government owned/government 
operated and vendor owned/vendor operated aircraft There are relatively 
few government owned/government operated aircraft in the agencies' 
fleet and these are most often special use aircraft such as smokejumper 
aircraft and lead planes. To further increase effectiveness of 
contracting aerial firefighting resources, the Forest Service agreed to 
contract for large air tankers for use by all federal agencies, and the 
Department of the Interior's Aviation Management Directorate (AMD) has 
agreed to contract single engine air tankers for use by all agencies. 
The AMD also contracts for CL-215 larger water-scooping air tankers for 
use in Alaska (exclusive use contract) and the lower 48 (call-when-
needed contract).
    Question 4b. In that process, did the Bureau of Land Management 
hold a competition to learn which brand and model of aircraft best met 
the needs of the Bureau's fire fighters?
    Answer. To achieve the right mix of air assets necessary to meet 
the diverse requirements of the wildland firefighting mission, the 
Department of the Interior focuses our contract specifications on the 
qualities and capabilities that best meet our fire response needs. We 
focus on required performance, not aircraft brands or models. The 
effectiveness of aviation resources on a fire is directly proportional 
to the speed and frequency at which the resource(s) can initially 
engage the fire, and the effective water/retardant carrying capacity of 
the aircraft. These factors are magnified by flexibility in 
prioritization, mobility, positioning and utilization of the 
versatility of many types of aircraft. Allowing any single element of 
the aviation resource mix to be dominated by one make and model of 
aircraft puts that entire element at danger of shutdown when and if an 
airworthiness issue is raised with that particular make and model of 
aircraft. Reliance on one make/model aircraft also limits the leverage 
the government has in managing contract costs with vendors.
    The maintenance, parts supply and other efficiencies that private 
enterprise might gain from operating one make and model of aircraft are 
unlikely to be achieved in a fleet of the size and composition of the 
one that wildland agencies currently manage. Diversity of the fleet 
means a mix of types of aircraft with specific mission strengths that 
provide a toolbox for fire managers to use with specific fire 
situations.
    Aviation resources are available nationwide to the federal agencies 
as a mix of different aircraft that may include large fixed-wing air 
tankers (LATs), smaller single engine fixed wing air tankers (SEATs), 
large and small helicopters, smaller fixed wing aircraft, and 
smokejumper aircraft. The relative mix of these aircraft on any given 
fire is determined by several factors including the type, location, and 
duration of incidents. The infrastructure necessary to support any of 
the aviation elements must also be included in any decision as to the 
numbers, location and utilization of that particular resource.
    Aviation resources that require significant capital investment, 
software, analysis and training to be fully functional are by nature 
less flexible than those that require little or no upfront investment. 
Analysis of the optimum mix and number of aircraft includes these 
costs.
    Question 4c. Does the Bureau of Land Management restrict their 
contracts to a single model manufactured by a single aircraft 
manufacturer or does the agency allow multiple companies to bid as long 
as the aircraft offered meets the contract specifications?
    Answer. Contracts are not restricted to aircraft model or 
manufacturer, but rather to aircraft performance characteristics 
designed to achieve the most efficient, effective, and safe fire 
aviation program. The USFS manages flight services procurement of LATs 
and the DOI manages procurement of the SEATs. Flight services are 
procured using one of two forms of aircraft contracts; one is an 
``Exclusive Use'' type contract in which the Government contracts for 
the aircraft, accompanying maintenance, and aircrew for a specified 
period of time with the exclusive use of the aircraft reserved for the 
Government. The other form of contract is termed a ``Call When Needed'' 
(CWN for the USES) or On-Call for DOI type contract that makes aircraft 
available to the Government at predetermined rates, if the aircraft is 
available for service (contingency basis).
    Large Type I and Type II fixed wing airtankers have played an 
increasingly important role in firefighting since the mid-1950s when 
aircraft were first used to deliver retardant. Today, privately owned 
airtankers are leased from private operators from February through 
November and pre-positioned throughout the country based on the fire 
threat. The number of airtankers currently available to the interagency 
fire management community is 19.
    Type 3 Air Tankers such as CL-215s and Air Tractor 802s will 
continue to be utilized where available and appropriate. Tactically the 
mix of CL-215s and the larger SEATs that currently exist are satisfying 
the requirements of fire operations personnel. Currently, most vendors 
are moving to larger capacity, turbine driven SEATs, and this is 
supported by the users in the field. The Type 1 and Type 2 helicopter 
programs are managed by all federal agencies to varying degrees. Each 
has the opportunity to contract for these services and does so as 
needed. The program was first developed to meet the demand for delivery 
of firefighters, equipment, retardant and suppressants to initial 
attack and escaped fires. Today, the program is characterized by a high 
level of competition for the helicopters and an increasing reliance on 
exclusive use services by some agencies. Many states also have robust 
helicopter programs supported by the Federal Excess Personal Property 
(FEPP) program aircraft administered by the U.S. Forest Service.
    Question 4d. For example, if a contractor put a bid in to use a 
Polish PZL-Mielec M-18 Dromader that would meet the contract 
specifications, would the BLM consider that contractor's bid?
    Answer. Any brand type or model of aircraft would be considered if 
it met the contract specifications for capability, speed, capacity, 
etc. Contracting of aviation resources from vendors by the USFS and DOT 
is generally accomplished through Exclusive Use or CWN/OnCall 
contracts. However, each agency implements its own contracting vehicles 
that vary in type, language, and format depending upon the type of 
aviation resource being procured. The diversity of vendors does allow 
for more flexibility in acquiring aircraft that are a better fit for 
the geography, fuels, fire behavior, topography and length of season.
    The current vendor fleet is provided by a variety of companies, 
ranging from a vendor with one aircraft to vendors that supply multiple 
aircraft that are widely distributed across the U.S. This situation 
makes contract administration, inspections, carding and monitoring of 
operations more labor and time intensive than contracting with one 
entity to provide all aircraft, however, when exercised within 
established doctrine, the use of a variety of aviation resources 
complements the actions of ground resources, multiplies the effect of 
those resources on the suppression action, provides a critical margin 
of safety and lowers total suppression costs.
       Response of Kim Thorsen to Question From Senator Barrasso
    Question 1a. At the public land subcommittee hearing held on May 
25111, both Under Secretary Harris Sherman and Deputy Director 
Marcilynn Burke supported good neighbor authority. In Colorado alone, 
Mr. Sherman testified the authority has been used successfully on 37 
projects covering 3,900 acres. These projects focused on fuel reduction 
within the wild land-urban interface.
    Had my Good Neighbor Forestry Bill been signed into law last year, 
as it was introduced, would it have aided the forest service in dealing 
with the terrible forest fuels problems that have been occurring? BLM?
    Answer. As noted in our testimony, the Administration supports Good 
Neighbor Authority, but we believe further study and analysis are 
needed to better understand the interplay of state and federal 
contracting and labor law and regulation before expansion of the 
authority is authorized. We look forward to working with the committee, 
States, and federal agencies to develop a better understanding of the 
issues and to improve the bill in a manner that meets the needs of key 
stakeholders. We welcome opportunities to enhance our capability to 
manage our natural resources through a landscape-scale approach that 
crosses a diverse spectrum of land ownerships.
    Question 1b. How many more acres might have been treated if Good 
Neighbor authority was available to the Forest Service? BLM?
    Answer. Currently, the BLM has very limited experience with the 
Good Neighbor authority since the BLM's authority to use it is only in 
the State of Colorado. BLM Colorado has only completed one project at 
this time. The number of acres that could have been treated under 
widespread Good Neighbor authority would depend on the individual 
state's ability to perform fuels reduction projects and resources 
available in any given state. Because the BLM only has the authority in 
Colorado, we have not explored the capacity of other western states to 
perform fuels reduction treatments and are therefore unable to 
determine a number of acres that might have been treated.
        Response of Kim Thorsen to Question From Senator Heller
    Question 1. The personal impacts of wildfire are a huge burden to 
my constituents. I have heard story after story of folks who have 
watched a fire burn on public lands, been prevented from putting the 
fire out, only to see it eventually destroy their property.
    As you know, if a private party starts a fire that spreads to 
public lands, they are held accountable. Whereas, if the federal 
government starts or fails to aggressively suppress a fire that 
destroys private property--there is vastly less accountability. In 
light of this, what are the trends in wildland use fires over the last 
5 years? And, what percentage of catastrophic wildfires was designated 
as wildland use fires instead of aggressively suppressed?
    Answer. The term ``wildland use fires'' is no longer used by the 
federal agencies. With the change in fire policy implementation that 
occurred in 2009, these fires are now included in the description of 
fires being managed for ``multiple objectives"; which more accurately 
describes the strategies and tactics of this type of wildfire response.
    Wildfires that threaten people, communities or important natural, 
economic or cultural resources will always be managed for full 
suppression. The concept of multiple objectives allows fire managers to 
make decisions based on land and fire management plans. It allows fire 
to play its natural role where appropriate and focuses suppression 
efforts in order to protect lives and property. This is in keeping with 
the principle of having the right response resources at the right place 
at the right time.
    All wildfires receive a response. In appropriate locations that 
response may be limited to confining a fire within designated 
boundaries. Where lives and homes are threatened, the response is 
always full suppression as quickly and efficiently as possible. In some 
instances, there may be a combination of tactics used on a single fire. 
Again, this is in line with having the right resources at the right 
place and right time. It is appropriate to note that when fires are 
deemed to require aggressive initial attack the overall percentage of 
success is calculated to be in the positive 95 percentile.
    Additionally, there are no criteria for ``catastrophic fire,'' 
which is a generic description of wildfires that is not used or 
accepted by the U.S. wildland fire community.
    The National Interagency Coordination Center in Boise, Idaho, 
collects and tracks data from wildfires that are considered ``large.'' 
By definition, a large fire is one that burns a minimum of 100 acres of 
primarily forested land or at least 300 acres of rangeland. Given that 
guideline, in FY 2011, there have been 630 federal large fires, 147 of 
which have, at one point been managed to achieve multiple objectives.
    It is important to note that, in the past, the acreage of multiple 
objective fires was tracked separately from full-suppression fires. In 
the last few years, these fire acreages have been lumped into full-
suppression fires, as many of them have changed from being managed as 
full-suppression to multiple objectives and back again. Since 
management strategies can change, sometimes on a daily basis, it would 
be ineffective to track these acreages separately.


</pre></body></html>
